Audit Report




OIG-09-045
Report on Controls Placed In Operation and Tests of Operating
Effectiveness for the Bureau of the Public Debt’s Administrative
Resource Center for the Period July 1, 2008 to June 30, 2009
August 28, 2009




Office of
Inspector General
Department of the Treasury
                                       DEPARTMENT OF THE TREASURY
                                             W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                                August 28, 2009


            MEMORANDUM FOR VAN ZECK, COMMISSIONER
                           BUREAU OF THE PUBLIC DEBT

            FROM:                   Michael Fitzgerald
                                    Director, Financial Audits

            SUBJECT:                Report on Controls Placed in Operation and Tests
                                    of Operating Effectiveness for the Bureau of the
                                    Public Debt’s Administrative Resource Center
                                    for the Period July 1, 2008 to June 30, 2009


            I am pleased to transmit the attached Report on Controls Placed in Operation and
            Tests of Operating Effectiveness for the Bureau of the Public Debt’s (BPD)
            Administrative Resource Center for the period July 1, 2008 to June 30, 2009.
            Under a contract monitored by the Office of Inspector General, KPMG LLP, an
            independent certified public accounting firm, performed an examination of the
            accounting processing and general computer controls related to certain services
            provided by BPD’s Administrative Resource Center to various Federal Government
            agencies (Customer Agencies) for the period July 1, 2008 to June 30, 2009. The
            contract required that the examination be performed in accordance with generally
            accepted government auditing standards and the American Institute of Certified
            Public Accountants’ Statement on Auditing Standards Number 70, Reports on the
            Processing of Transactions by Service Organizations, as amended.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                    •   Independent Service Auditors’ Report; and
                    •   Independent Auditors’ Report on Compliance with Laws and Regulations.

            In its examination of the BPD’s Administrative Resource Center, KPMG LLP found:

                •   the Description of Controls Provided by the BPD presents fairly, in all material
                    respects, the relevant aspects of BPD’s controls that had been placed in
                    operation as of June 30, 2009,
                •   that these controls are suitably designed to provide reasonable assurance that
                    the specified control objectives would be achieved if the described controls
                    were complied with satisfactorily and Customer Agencies and sub-service
                    organizations applied the controls contemplated in the design of BPD’s
                    controls,
Page 2


   •   that the controls tested were operating with sufficient effectiveness to
       provide reasonable, but not absolute, assurance that the control objectives
       were achieved during the period from July 1, 2008 to June 30, 2009, and
   •   no instances of reportable noncompliance with laws and regulations tested.

In connection with the contract, we reviewed KPMG LLP’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit in accordance with generally accepted government auditing standards,
was not intended to enable us to express, and we do not express, an opinion on
BPD's description of controls, the suitability of the design of these controls and the
operating effectiveness of controls tested or a conclusion on compliance with laws
and regulations. KPMG LLP is responsible for the attached auditors’ reports dated
August 27, 2009 and the conclusions expressed in the reports. However, our
review disclosed no instances where KPMG LLP did not comply, in all material
respects, with generally accepted government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a member
of your staff may contact Mark S. Levitt, Manager, Financial Audits at
(202) 927-5076.

Attachment
     U.S. Department of the Treasury
        Bureau of the Public Debt



     Administrative Resource Center
     Financial Management Services
       Accounting Processing and
       General Computer Controls




Report on Controls Placed in Operation and
      Tests of Operating Effectiveness
For the Period July 1, 2008 to June 30, 2009
                                     U.S. DEPARTMENT OF THE TREASURY
                                         BUREAU OF THE PUBLIC DEBT
                                     ADMINISTRATIVE RESOURCE CENTER
                                     FINANCIAL MANAGEMENT SERVICES

                        REPORT ON CONTROLS PLACED IN OPERATION AND
                             TESTS OF OPERATING EFFECTIVENESS

                                                           Table of Contents

Section                                                  Description                                                                             Page

   I. Independent Service Auditors’ Report Provided by KPMG LLP ..........................................1

  II. Description of Controls Provided by the Bureau of the Public Debt ......................................4

      Overview of Operations .................................................................................................................5

      Relevant Aspects of the Control Environment, Risk Assessment, and Monitoring......................13

              Control Environment...........................................................................................................13
              Risk Assessment..................................................................................................................13
              Monitoring...........................................................................................................................13

      Information and Communication ..................................................................................... 15

              Information Systems .......................................................................................................15
              Communication ..................................................................................................................16

      Control Objectives and Related Controls
          The Bureau of the Public Debt’s control objectives and related controls are
          included in Section III of this report, “Control Objectives, Related Controls,
          and Tests of Operating Effectiveness.” Although the control objectives and
          related controls are included in Section III, they are, nevertheless, an integral
          part of the Bureau of the Public Debt’s description of controls.

      Customer Agency Control Considerations....................................................................................18

      Sub-service Organizations ............................................................................................................20

 III. Control Objectives, Related Controls, and Tests of Operating Effectiveness .......................23

      Accounting Processing Controls...................................................................................................24

              Obligations ..........................................................................................................................24
              Disbursements .....................................................................................................................28
              Unfilled Customer Orders, Receivables, and Cash Receipts ..............................................33
              Deposits...............................................................................................................................36
              Payroll Accruals ..................................................................................................................38
              Payroll Disbursements.........................................................................................................39
              USSGL ................................................................................................................................41
              Accruals...............................................................................................................................44
              Government-Wide Reporting..............................................................................................47
              Administrative Spending.....................................................................................................50
              Budget .................................................................................................................................52
              Manual Journal Entries........................................................................................................55
              Federal Investments ............................................................................................................56
              Suppliers and Banks Record Changes.................................................................................57

      Procurement Processing Controls .................................................................................................58

              Acquisitions and Contracts..................................................................................................58
              Sufficiently Funded Requisitions ........................................................................................59

      General Computer Controls ..........................................................................................................60

              System Access ....................................................................................................................60
              System Changes ..................................................................................................................70
              Non Interruptive System Service ........................................................................................73
              Records Maintenance ..........................................................................................................80

IV.   Other Information Provided by Bureau of the Public Debt....................................................83

      Contingency Planning ...................................................................................................................84

V.    Independent Auditors’ Report on Compliance with Laws and Regulations .........................86
I.   INDEPENDENT SERVICE AUDITORS’ REPORT
             PROVIDED BY KPMG LLP




                     1
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                              Independent Service Auditors’ Report

Inspector General, U.S. Department of the Treasury
Deputy Executive Director, Administrative Resource Center


We have examined the accompanying description of the accounting processing and general
computer controls related to the financial management services provided by the Administrative
Resource Center (ARC) of the Bureau of the Public Debt (BPD). Our examination included
procedures to obtain reasonable assurance about whether (1) the accompanying description
presents fairly, in all material respects, the aspects of BPD’s controls that may be relevant to a
customer agencies’ internal control as it relates to an audit of financial statements; (2) the controls
included in the description were suitably designed to achieve the control objectives specified in
the description, if those controls were complied with satisfactorily, and customer agencies and
sub-service organizations applied the controls contemplated in the design of BPD’s controls; and
(3) such controls had been placed in operation as of June 30, 2009. BPD uses services provided
by other organizations external to BPD (sub-service organizations). A list of sub-service
organizations is provided in Section II of this report. The accompanying description includes only
those controls and related control objectives of BPD, and does not include control objectives and
related controls of sub-service organizations. Our examination did not extend to controls of sub-
service organizations. The control objectives were specified by the management of BPD. Our
examination was performed in accordance with standards established by the American Institute of
Certified Public Accountants and applicable Government Auditing Standards issued by the
Comptroller General of the United States and included those procedures we considered necessary
in the circumstances to obtain a reasonable basis for rendering our opinion.

In our opinion, the accompanying description of the aforementioned controls presents fairly, in all
material respects, the relevant aspects of BPD’s controls that had been placed in operation as of
June 30, 2009. Also, in our opinion, the controls, as described, are suitably designed to provide
reasonable assurance that the specified control objectives would be achieved if the described
controls were complied with satisfactorily and customer agencies and sub-service organizations
applied the controls contemplated in the design of BPD’s controls.

In addition to the procedures we considered necessary to render our opinion as expressed in the
previous paragraph, we applied tests to specific controls, listed in Section III, to obtain evidence
about their effectiveness in meeting the control objectives, described in Section III, during the
period from July 1, 2008 to June 30, 2009. The specific controls and the nature, timing, extent,
and results of the tests are listed in Section III. This information is being provided to customer
agencies of BPD and to their auditors to be taken into consideration, along with information about
the internal control of customer agencies, when making assessments of control risk for customer
agencies. In our opinion, the controls that were tested, as described in Section III, were operating
with sufficient effectiveness to provide reasonable, but not absolute, assurance that the control
objectives specified in Section III were achieved during the period from July 1, 2008 to June 30,
2009.

The relative effectiveness and significance of specific controls at BPD and their effect on
assessments of control risk at customer agencies are dependent on their interaction with the


                                                                  2
                                KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                member firm of KPMG International, a Swiss cooperative.
controls, and other factors present at individual customer agencies. We have performed no
procedures to evaluate the effectiveness of controls at individual customer agencies.

The description of controls at BPD is as of June 30, 2009, and the information about tests of the
operating effectiveness of specific controls covers the period from July 1, 2008 to June 30, 2009.
Any projection of such information to the future is subject to the risk that, because of change, the
description may no longer portray the controls in existence. The potential effectiveness of
specific controls at BPD is subject to inherent limitations and, accordingly, errors or fraud may
occur and not be detected. Furthermore, the projection of any conclusions, based on our findings,
to future periods is subject to the risk that changes made to the system or controls, or the failure to
make needed changes to the system or controls may alter the validity of such conclusions.

The information in Section IV of this report is presented by BPD to provide additional
information and is not a part of BPD’s description of controls placed in operation. The
information in Section IV has not been subjected to the procedures applied in the examination of
the description of the controls applicable to the processing of transactions for customer agencies
and, accordingly, we express no opinion on it.

This report is intended solely for the information and use of the management of BPD, its
customer agencies, the independent auditors of its customer agencies, the U.S. Department of the
Treasury Office of Inspector General, the Office of Management and Budget, the Government
Accountability Office, and the U.S. Congress, and is not intended to be, and should not be, used
by anyone other than these specified parties.




August 27, 2009




                                                  3
II. DESCRIPTION OF CONTROLS PROVIDED BY THE BUREAU OF THE
                          PUBLIC DEBT




                          4
OVERVIEW OF OPERATIONS

The Bureau of the Public Debt’s (BPD’s) Administrative Resource Center (ARC) has been a
member of the Treasury Franchise Fund (TFF) since August 1998. The TFF was established by
P.L. 104-208 and was made permanent by P.L. 108-447. ARC provides administrative support
services on a competitive, fee-for-service, and full-cost basis. ARC’s mission is to aid in
improving overall government effectiveness by delivering responsive and cost effective
administrative support to its customer agencies; thereby, improving their ability to effectively
discharge their mission.

As of June 30, 2009 ARC provided financial management services to approximately 50 customer
agencies. Financial management services include accounting, budgeting, reporting, travel,
procurement and systems support and platform services. The ARC divisions, branches and the
financial management services that they provide are:

Accounting Services Division (ASD):

 Accounting Operations Branch (AOB)          Document Processing


 Accounts and Reports Branch (ARB)           Reporting Services

 Accounting Services Branch (ASB)            Document Processing

 Treasury Reporting Branch (TRB)             Reporting Services


 Manufacturing Services Branch (MSB)         Document Processing
                                             Reporting Services

 Central Accounting Branch (CAB)             Budget Services
                                             Supplier Table Update and Maintenance
                                             Record and Reconcile Payroll
                                             1099 Reporting

 Program Support Branch (PSB)                Deposit Services
                                             SPS Operations

Travel Services Division (TSD):

 Temporary Duty Services Branch (TDSB)       Temporary Duty Travel Services
                                             Operate/Maintain GovTrip
                                             Provide GovTrip Training Services
                                             Document Processing

 Relocation Services Branch (RSB)            Relocation Services
                                             Operate/Maintain moveLINQ
                                             Record and process relocations
                                             Tax Reporting


                                               5                Description of Controls Provided
                                                                 by the Bureau of the Public Debt
Business Technology Division (BTD):

 Customer Service Branch (CSB)            Provide Financial Management System
                                          Support/Training

 Quality Control Branch (QCB)             Operate/Maintain Financial Management Systems

 Project and Technical Services Branch Application Development/Analysis/Project
 (PTSB)                                Management

Human Resources Operations Division (HROD):

 Pay and Leave Services Branch (PLSB)     Administer webTA System User Access

Division of Procurement Services (DPS):

 Procurement Services Branch 1 (PSB1)     Acquisition Services

 Procurement Services Branch 2 (PSB2)     Acquisition Services

 Procurement Services Branch 3 (PSB3)     Acquisition Services




                                            6              Description of Controls Provided
                                                            by the Bureau of the Public Debt
                                             ARC Organizational Chart


                                          Office of Executive Director
                                          Deputy Executive Director


      Accounting Services
           Division                Business                Division of    Human Resource                Travel
                                  Technology              Procurement       Operations                 Services
                                   Division                 Services         Division                  Division
Accounting        Manufacturing
Operations          Services      Customer              Procurement        Pay and Leave              Relocation
 Branch             Branch         Service            Services Branch 1   Services Branch              Services
                                   Branch                                                              Branch
Accounts and         Program                            Procurement
  Reports            Support       Quality            Services Branch 2                              Temporary
  Branch              Branch       Control                                                          Duty Services
                                   Branch               Procurement                                   Branch
Accounting           Treasury                         Services Branch 3
 Services            Reporting    Project and
 Branch               Branch       Technical
                                   Services
 Central                            Branch
Accounting
 Branch




                                                      7                         Description of Controls Provided
                                                                                by the Bureau of the Public Debt
Accounting Services
Accounting Services consists of the following:
   • Recording financial transactions in an automated accounting system, including
       appropriation, apportionment, allocations, revenue agreements, accounts receivable,
       collections, commitments, obligations, accruals, accounts payable, disbursements, and
       journal entries.
   • Examining and processing vendor and other employee payments.
   • Examining and processing revenue and other collections.

To maximize efficiencies and enhance customer satisfaction, ARC has developed financial
management service guidelines for customer agencies. The guidelines are available to customers
via ARC’s customer websites. The guidelines provide accounting service overviews, links to
regulations and data submission requirements for the various types of services and accounting
transactions that ARC processes.

Prior to providing accounting services to customer agencies, ARC meets with them to learn and
understand the authorizing legislation and mission. This enables ARC to assist them in defining
their accounting needs and to ensure that the accounting services provided comply with
applicable regulations and are able to meet their internal and external reporting needs.

ARC’s automated accounting systems provide for budgeting and funds control at various
organizational and spending levels. The levels used are established based on the customer
agency’s authorizing legislation, apportionment level, or their request to control at a lower level
than required by law.

ARC offers commitment accounting to customer agencies to better enable them to monitor and
control their funds availability. When applicable, ARC sets aside funds that are available for
obligation based on an approved purchase requisition (PR). In the event that the actual order
amount is greater than the approved purchase request amount, a modification to the PR is
required unless overage tolerances have been pre-approved by the customer agency.

ARC records obligations based on fully executed purchase orders, contracts, training orders or
interagency agreements. Recording the obligations in the accounting system sets aside funds to
ensure that funds are available to pay for the goods or services when provided and billed by
suppliers. All obligations must be approved for funds availability prior to issuance. This is
generally done through processing a PR, but is the responsibility of the customer agency if they
elect not to have commitment accounting services. In the event that the invoice amount is greater
than the obligated amount, a modification is required unless overage tolerances have been pre-
approved by the customer agency.

Customer agencies are required to notify ARC when goods/services have been received but not
invoiced by the supplier at the end of a reporting period. Based on the information received,
ARC records expense accruals in the accounting system. The notification process is established
at the customer agency level and can include submitting receiving reports or schedules that detail
the items to be accrued.

ARC processes and/or records all customer agency disbursements. These include supplier
invoices, purchase card payments, Intra-governmental Payment And Collection (IPAC)
transactions, employee travel reimbursements, and employee payroll.



                                               8                 Description of Controls Provided
                                                                 by the Bureau of the Public Debt
The preferred approach for payment of qualifying supplier goods/services is the government’s
purchase card program. Customer agencies are encouraged to obtain and use a government
purchase card to the greatest extent possible and they are encouraged to participate in ARC's
purchase card program and use Citibank's CitiDirect system. CitiDirect allows customer agency
cardholders and approving officials to electronically reconcile, route, approve, and submit the
purchase card statement to ARC for payment.

Generally, ARC customer agencies use two methods of receiving and monitoring the status of
supplier invoices. The preferred method requires that supplier invoices be sent directly to ARC.
When using this method, ARC has controls that ensure that all invoices are stamped with the date
received, are forwarded to the customer agency staff designated on the obligating document for
review and approval, and are monitored to ensure that invoices are returned to ARC for
processing in accordance with the Prompt Payment Act. The alternative method (under unique
circumstances) requires that supplier invoices be sent directly to the customer agency. When
using this method, the customer agency is required to establish controls to ensure that all invoices
are stamped with the date received, reviewed, certified by the staff member designated on the
obligation document, and submitted to ARC for processing in accordance with the Prompt
Payment Act.

All invoices are examined by ARC or customer agency staff to ensure that they are proper, as
defined by the Prompt Payment Act. In addition, invoices are matched to the obligating
documents and receiving reports (when applicable) and are certified by contracting officers
technical representatives (COTR) or point of contacts (POC). If receiving reports are not
submitted, the COTR/POC certifies that the invoice is in accordance with the terms of the order,
and provides the dates the goods/services were received and accepted.

After the COTR/POC certifies the invoice, it is submitted to ARC to process the payment to the
supplier. The customer agency is responsible for ensuring that invoices are submitted in time to
receive discounts, if applicable, and to pay the invoice prior to the Prompt Payment Act due date.
Upon receipt, ARC reviews the invoice for proper certification, accuracy and completeness and
either schedules the payment in accordance with the terms of the order, the Prompt Pay Act and
Electronic Funds Transfer (EFT) Rules or returns the invoice to the customer for clarification or
additional information.

ARC transmits EFT and check payment files to the U.S. Department of the Treasury using
Treasury’s Secure Payment System (SPS). In addition, ARC processes most intragovernmental
payments using Treasury’s IPAC system. ARC obtains customer agency approval prior to
initiating an IPAC payment to another federal agency. ARC also monitors IPAC activity initiated
against the customer agency by another federal agency and forwards all IPAC payments to the
appropriate certifying official for approval. ARC records all IPAC payments in the accounting
period the IPAC was accomplished.

Third-party payroll processors provide ARC with a file of payroll data at least bi-weekly (weekly
if payroll adjustment files are applicable) to interface into the accounting system. ARC
reconciles all payroll transactions recorded to disbursements reported by the third-party
processor. ARC records payroll accruals on a monthly basis and reverses the accrual in the
subsequent accounting period. The payroll accrual is a prorated calculation performed by the
accounting system that is based on the most recent payroll disbursement data available.

ARC processes revenue and collection related transactions (i.e., unfilled customer orders,
receivables, and cash receipts) with customer agency approval. Customer agencies either forward

                                               9                 Description of Controls Provided
                                                                 by the Bureau of the Public Debt
to ARC approved source documents or a summary of their transactions. ARC records IPAC
transactions in the period in which they are processed in FMS’s IPAC System. Check deposits
are made by ARC or the customer agency. When checks are deposited by customers, the
Standard Form (SF) 215 deposit ticket is forwarded to ARC. In addition, all deposits require the
customer agencies to provide the accounting information necessary to record the cash receipt.

ARC records proprietary and budgetary accounting entries using the United States Standard
General Ledger (USSGL) and Treasury approved budget object codes at the transaction level. In
addition, ARC reconciles general ledger accounts to ensure transactions are posted to the
appropriate accounts. ARC prepares budgetary to proprietary account relationship reconciliations
on a monthly basis to ensure transactions are recorded and corrects any invalid out-of-balance
relationships.

ARC utilizes FileSurf, a software application managed by BPD’s Office of Management
Services’ (OMS), Information Management Branch (IMB), to store hardcopy data records. ARC
generates labels, which are printed and placed on boxes that are to be stored in BPD's warehouse.
The information recorded on the label is entered into FileSurf so that the boxes can subsequently
be requested by ARC personnel as they are needed. Once the data is recorded in FileSurf, BPD
warehouse personnel either pick up the box to be placed in storage or return the box to ARC, as
applicable.

ARC works with customer agencies to develop and implement processes to ensure the accuracy
of their accounting information. This includes reviewing open commitment, obligation, expense
accrual, customer agreement, and open billing document reports for completeness, accuracy, and
validity. This review is conducted by customer agencies or ARC staff no less frequently than
quarterly. Based on the review, a determination is made on the action(s) needed to adjust or
remove any invalid items in ARC’s accounting records.

Budget Services
ARC enters the customer agency’s budget authority in the accounting system based on the
supporting documentation, which may include enacted legislation, anticipated resources, Treasury
warrants or transfer documents, an Apportionment and Reapportionment Schedule (SF 132), the
customer agency’s budget plan or recorded reimbursable activity. The budget process makes
funds available for commitment, obligation, and/or expenditure, and with controls in place, the
automated accounting system checks for sufficient funds in the customer agency’s budget at the
specified control levels.

Reporting Services
ARC performs all required external reporting for customer agencies, including the following
reports: FMS 224, FACTS I, FACTS II, Report on Receivables, Treasury Information Executive
Repository (TIER), and quarterly and year-end financial statements. In addition, ARC has
created a standard suite of management reports that are available to all customer agencies. ARC
also reconciles certain general ledger accounts and ensures that proprietary and budgetary general
ledger account relationships are maintained.

Travel Services Temporary Duty
Travel Services consist of the following:
    • Operating and maintaining the E-Gov Travel system (GovTrip) in compliance with the
        Federal Travel Regulations (FTR) for all ARC customer agencies
    • Researching and implementing the FTR and Agency/Bureau travel policies
    • System Administration

                                              10                Description of Controls Provided
                                                                by the Bureau of the Public Debt
    •   Providing customer service and training to system users
    •   Evaluating, recommending, and implementing approved changes to existing systems
        and/or new systems, including working with the E-Gov Travel vendor and the General
        Services Administration (GSA) on system enhancements and deficiencies
    •   Processing employee reimbursements via interface to Oracle Federal Financials (Oracle)

Travel documents (authorizations and vouchers) and miscellaneous employee reimbursements are
entered by customer agencies into GovTrip and are electronically routed to an Approving Official
for review and approval. The Approving Official electronically signs the documents with a status
of “approved”. All “approved” documents are interfaced and reconciled to Oracle daily.
GovTrip contains system audits that prohibit documents that do not meet certain Federal Travel
Regulations or do not contain required accounting information from interfacing to Oracle.

Access to GovTrip is restricted to users with a valid logon ID and password. All GovTrip users
must complete the self-registration process, which includes being accepted by a TSD
Administrator who verifies the request to grant GovTrip access. Budget Reviewers and
Approving Officials must complete, sign, and submit an approved Form PD5409E –
Administrative Resource Center (ARC) Online Applications Access Request or have their
approving official or agency travel contact submit an e-mail request to Travel Services. Changes
to a user’s identification (i.e., name change) require a resubmitted Form PD5409E or an e-mail
from the user copying his/her approving official or agency travel contact. Changes to a user’s
role require a resubmitted PD5409E or e-mail approval from the traveler’s approving official or
agency travel contact.

Relocation Services
Relocation Services consist of the following:
   • Operating and maintaining moveLINQ, a government relocation expense management
        system in compliance with the Federal Travel Regulations (FTR), Joint Travel
        Regulations (JTR) and Joint Federal Travel Regulations (JFTR) to record and process
        permanent change of station moves for customer agencies
   • Researching and implementing relocation regulations and Agency/Bureau relocation
        travel policies
   • System Administration
   • Providing customer service
   • Providing system support and training to internal users
   • Evaluating, recommending, and implementing approved changes to the existing system,
        including working with the moveLINQ vendor, mLINQS, on system enhancements and
        deficiencies
   • Processing relocations through the moveLINQ system
   • Processing obligations and disbursements via interface to Oracle Federal Financials
        (Oracle)

Relocation travel documents (authorizations, amendments, advances, and vouchers) are entered
by ARC into moveLINQ. Prior to being submitted in moveLINQ, the vouchers are reviewed for
accuracy by a second ARC employee. Completed documents are faxed or digitally scanned and
e-mailed to the traveler and/or approving official for review and approval, as appropriate. For
customers that we process payments, approved documents are interfaced and reconciled to Oracle
daily.




                                             11                Description of Controls Provided
                                                               by the Bureau of the Public Debt
Access to moveLINQ is restricted to ARC users with a valid logon and password. The process
for requesting, establishing, issuing, and closing user accounts is controlled through the use of the
moveLINQ Online Application Access Request Form which requires supervisor approval.
Changes to a user’s identification (i.e. name change) require a resubmitted moveLINQ Online
Application Access Request Form or e-mail from the user copying his/her supervisor or manager.
Changes to a user’s role require a resubmitted Application Access Request Form or e-mail
approval from the user’s supervisor or manager.

Procurement Services
Procurement Services consist of the following:
    • Awarding contracts and purchase orders in accordance with Federal Acquisition
       Regulations and Treasury Acquisition Regulations
    • Contract administration

Requests for procurement actions are initiated by customers through requisitions. The
requisitions contain a performance work statement or requirements document, estimated dollar
amount for the goods or service, validation that funds are available and approval from an
authorized official. Requisitions may be sent electronically through PRISM or manually.

Upon receipt of a completed requisition, ARC procurement personnel will develop an acquisition
strategy based upon the item or service being purchased and the expected dollar amount of the
purchase. Using information from the requisition, ARC personnel will develop and publicize the
solicitation requesting proposals. ARC personnel will conduct the evaluation of the proposals
with technical team of experts from our customer agencies. With input from the technical team,
an ARC contracting officer will select the vendor that best meets the customer’s requirements.

Following award of the contract, ARC personnel will provide contract administration services.
This includes executing approved and authorized contract modification, resolving issues that arise
during the life of the contract, monitoring delivery schedules and closing out the contract at
completion.

System Platform Services
ARC maintains system support staff that provide customer services and training activities.
Customer support is provided via phone or e-mail. ARC maintains a training course curriculum
that is generally provided in a hands-on classroom environment.

ARC performs all system access activities in accordance with established procedures for granting,
changing, and removing user access. Included in these procedures are independent reviews of
system access activity and user inactivity.

ARC performs all system change activities in accordance with established procedures for
evaluating, authorizing, and implementing. To this end ARC maintains responsibility for System
Integration Testing, providing customers an opportunity to perform User Acceptance Testing, and
approving production changes.




                                               12                 Description of Controls Provided
                                                                  by the Bureau of the Public Debt
RELEVANT ASPECTS OF THE CONTROL ENVIRONMENT, RISK
ASSESSMENT, AND MONITORING

Control Environment

ARC Financial Management Service operations are under the direction of the Office of the
Executive Director of ARC. ARC’s mission is to aid in improving overall government
effectiveness by delivering responsive and cost effective administrative support to its customer
agencies; thereby, improving their ability to effectively discharge their mission.

ARC employees are responsible for processing and reporting accounting activity, providing
system support and development services, procurement, and travel services for its customer
agencies. ARC holds management meetings on a regular basis to discuss special processing
requests, operational performance, and the development and maintenance of projects in process.
Written position descriptions for employees are maintained. The descriptions are inspected and
revised as necessary.

References are sought and background, credit, and security checks are conducted for all BPD
personnel when they are hired. Additional background, credit, and security checks are performed
every three to five years. The confidentiality of user-organization information is stressed during
the new employee orientation program and is emphasized in the personnel manual issued to each
employee. BPD provides a mandatory orientation program to all full time employees and
encourages employees to attend other formal outside training. Training available to BPD
employees with related work responsibilities includes, but is not limited to: Prompt Pay and
Voucher Examination, Appropriation Law, Federal Acquisition Regulations, Federal Travel
Regulations, FMS 224 – Statement of Transactions, Dollars & Sense, Standard General Ledger
(SGL) Basic, SGL Advanced, SGL Trial Balances and Crosswalks, Budgeting and Accounting –
Making the Connection and Computer Security Training Awareness.

All BPD employees receive an annual written performance evaluation and salary review. These
reviews are based on goals and objectives that are established and reviewed during meetings
between the employee and the employee’s supervisor. Completed appraisals are reviewed by
senior management and become a permanent part of the employee’s personnel file.

Risk Assessment

BPD has placed into operation a risk assessment process to identify and manage risks that could
affect ARC’s ability to provide reliable accounting and reporting, system platform and travel
services for customer agencies. This process requires management to identify significant risks in
their areas of responsibility and to implement appropriate measures and controls to manage these
risks.

Monitoring

BPD management and supervisory personnel monitor the quality of internal control performance
as a normal part of their activities. Management and supervisory personnel inquire of staff and/or
review data to ensure that transactions are processed within an effective internal control
environment. An example of a key monitoring control is that ASD Reporting Branch Managers
and/or Supervisors review reconciliations from Oracle subledgers to the related general ledger
accounts. ASD prepares budgetary to proprietary account relationship reconciliations on a


                                              13                Description of Controls Provided
                                                                by the Bureau of the Public Debt
monthly basis. In addition, ASD prepares and reconciles the FACTS II submitted reports to the
trial balance and statement of budgetary resources on a quarterly basis. ARC also uses the results
of the annual Statement on Auditing Standards Number 70 (SAS 70) examination as a tool for
identifying opportunities to strengthen controls.




                                              14                Description of Controls Provided
                                                                by the Bureau of the Public Debt
INFORMATION AND COMMUNICATION

Information Systems

Migration to Commercial Host (Oracle on Demand)
ARC is migrating the hosting of Oracle Federal Financials and PRISM to Oracle Corporation’s
Oracle on Demand service in three phases. As the hosting company for ARC, Oracle on Demand
staff serve as the database and systems administrator and provides back up and recovery services.
The Oracle and PRISM systems physically reside in a caged federal environment within Oracle
on Demand’s Austin Data Center and will only be accessible via VPN between BPD and Oracle
on Demand. The first phase for production use (C1) included all but two customer agencies.
Phase one was completed on April 14, 2009. The second phase (C2), for one customer agency
was completed on May 26, 2009; and the third phase (C3) for one customer agency is scheduled
to be completed in February 2010.

Oracle Federal Financials (Oracle)
Prior to migration ARC operated Oracle version 11i, with the Oracle 9i database, which runs
within BPD’s perimeter security zones and accesses data in the perimeter security zones using
Linux as its operating system. BPD’s Office of Information Technology (OIT) served as the
Oracle database administrator and provides primary support for tape backup and recovery.
Security was also provided by OIT through firewall rules and router access control lists. Oracle
on Demand operates Oracle version 11i, Oracle 10g database in a Linux operating system
environment.

The following Oracle system information is relevant for the entire period – July 1, 2008 through
June 30, 2009. Oracle uses a two-tier web-based infrastructure with a front-end Internet user
interface and a database residing on the secure network. The application accesses the database IP
to IP on a specified port that was defined in the Access Control List. Internet access is via a 128-
bit Secure Sockets Layer (SSL) encrypted connection. The application is compliant with Section
508 of the Rehabilitation Act Amendment for 1998 for Americans with Disabilities (ADA).
Functions of Oracle include budget execution, general ledger, purchasing, accounts payable,
accounts receivable, fixed assets, and manufacturing. ARC also uses a report writer package
called Discoverer that provides users with the ability to create their own ad hoc reports for query
purposes.

GovTrip
ARC uses Northrop Grumman Mission System’s (NGMS) GovTrip travel system (system
selected by the U.S. Department of the Treasury as its E-Gov Travel solution). NGMS developed
and hosts GovTrip. GovTrip is a web-based, self-service travel system that incorporates
traditional reservation and fulfillment support and a fully-automated booking process. GovTrip
uses system processes and audits to ensure compliance to the FTR and/or Agency policy.
GovTrip is used to prepare, examine, route, approve, and record travel authorizations and
vouchers. It is used to process all temporary duty location (TDY) authorizations, vouchers, local
vouchers and miscellaneous employee reimbursements. Approved documents interface to Oracle
for obligation or payment during a daily batch process. GovTrip users consist of travelers,
document preparers, budget reviewers, approving officials and administrators.

moveLINQ
ARC uses mLINQS relocation expense management system, moveLINQ, to meet their relocation
management program, payment system and reporting requirements. moveLINQ is an E-Gov
Travel Services and Federal Travel Regulations, Chapter 302 compliant web-based system that

                                               15                Description of Controls Provided
                                                                 by the Bureau of the Public Debt
automates relocation expense management processes, policy and entitlement for both domestic
moves and international relocations. The application is used for household goods shipment and
storage arrangements, employee travel arrangements, third party real estate payments and
relocation tax administration, including W-2 preparation. Approved documents interface to
Oracle for obligation or payment during a daily scheduled batch process.     moveLINQ users
consist of authorized TSD personnel. OIT hosts the moveLINQ system and serves as the
Microsoft SQL database administrator and provides primary support for tape backup and
recovery.

Procurement Request Information System Management (PRISM)
Prior to migration ARC operated the Compusearch PRISM system as its procurement system for
customer agencies serviced by Oracle. ARC operated PRISM version 6.0, with the Oracle 9i
database, which runs within BPD’s perimeter security zones and accesses data in the perimeter
security zones using Linux as its operating system. OIT served as the PRISM database
administrator and provides primary support for tape backup and recovery. Security was provided
by OIT through firewall rules and router access control lists. Oracle on Demand operates PRISM
on Windows operating system and Oracle 10g database in a Linux operating system environment.

The following PRISM system information is relevant for the entire period – July 1, 2008 through
June 30, 2009. PRISM uses a two-tier web-based infrastructure with a front-end Internet user
interface using Windows as its operating system and a database residing on the secure network.
The application accesses the database on a specified port that is defined in the Access Control
List. Only select Internet Protocol (IP) addresses that are defined in the Access Control List are
permitted to connect to the database IP. Internet access is via a 128-bit SSL encrypted
connection. Transactions entered through PRISM interface real-time with Oracle.

webTA
ARC uses Kronos’ webTA as its time and attendance system for most of its customer agencies
whose payroll is processed by the NFC. Transactions that are entered in webTA interface with
NFC, and NFC ultimately sends payroll data back to ARC for an interface into Oracle.

ARC operates webTA version 3 on Windows 2000. webTA uses the Oracle 9i database, which
runs on the ARC subnet and accesses data in the ARC DMZ using Linux AS 2.1 as its operating
system. OIT serves as the webTA database administrator and provides primary support for tape
backup and recovery. webTA uses a two-tier web-based infrastructure with a front-end Internet
user interface and a database residing on the secure network. The application (web-applet)
accesses the database on a specified port that is defined in the Access Control List. Only select IP
addresses that are defined in the Access Control List are permitted to connect to the database IP.
External Internet access is via 128-bit encrypted connection. External security is provided by
OIT through firewall rules and router access control lists.

PRISM, GovTrip, and moveLINQ are feeder systems that interface with Oracle. webTA feeds
data to the National Finance Center (NFC) that is then interfaced with Oracle. ARC and Oracle
on Demand personnel maintain Oracle, PRISM, moveLINQ, and the payroll interface that feeds
NFC data to Oracle.

Communication

BPD has implemented various methods of communication to ensure that all employees
understand their individual roles and responsibilities over processing transactions and controls.
These methods include orientation and training programs for newly hired employees, and use of

                                               16                Description of Controls Provided
                                                                 by the Bureau of the Public Debt
electronic mail messages to communicate time sensitive messages and information. Managers
also hold periodic staff meetings as appropriate. Every employee has a written position
description that includes the responsibility to communicate significant issues and exceptions to an
appropriate higher level within the organization in a timely manner. Managers also make an
effort to address continuing education needs of all employees by identifying training
opportunities made available through BPD's employee training and career development programs,
internal training classes, and professional conferences.




                                              17                 Description of Controls Provided
                                                                 by the Bureau of the Public Debt
CUSTOMER AGENCY CONTROL CONSIDERATIONS

BPD's accounting processing and general computer controls related to ARC’s financial
management services were designed with the expectation that certain internal controls would be
implemented by customer agencies. The application of such controls by the customer agencies is
necessary to achieve all control objectives identified in this report, since ARC is a servicing
organization that processes transactions that directly affect customer agencies.

This section describes certain controls that customer agencies should consider for achievement of
control objectives identified in this report. The customer agency control considerations presented
below should not be regarded as a comprehensive list of all controls that should be employed by
customer agencies. Customer agencies should establish controls to:

•   Properly approve and accurately enter obligations into the procurement and travel systems in
    the proper period.
•   Send valid requests to record manual obligations to ARC in a timely manner.
•   Review open obligation reports for completeness, accuracy, and validity.
•   Restrict customer agency access to Oracle, Discoverer, PRISM, webTA, and GovTrip to
    authorized individuals.
•   Approve and return relocation travel authorizations to RSB for processing in moveLINQ in a
    timely manner.
•   Communicate customer agency required levels of budget and spending controls to ARC.
•   Compare actual spending results to budgeted amounts.
•   Review the financial reports provided by ARC to ensure that disbursement transactions are
    complete and accurate.
•   Provide certification of FACTS II to ARC prior to ARC’s FACTS II system certification.
•   Approve invoices for payment and send approved invoices to ARC in a timely manner.
•   Ensure that invoices properly reflect the invoice receipt date and formal or constructive
    acceptance date according to the Prompt Payment Act.
•   Approve travel vouchers and accurately enter the vouchers into GovTrip in the proper period.
•   Approve and return relocation travel vouchers to RSB for processing in moveLINQ in a
    timely manner.
•   Maintain and communicate to ARC, a list of individuals authorized to approve invoices and
    travel vouchers when it is not communicated in the authorizing agreement.
•   Send approved and accurate documentation of unfilled customer orders, receivables, cash
    receipts transactions to ARC in the proper period.
•   Review unfilled customer orders, receivable and advance reports for completeness, accuracy,
    and validity.
•   Monitor and pursue collection of delinquent balances.
•   Review the financial reports provided by ARC to ensure that payroll accruals are complete
    and accurate.

                                              18                Description of Controls Provided
                                                                by the Bureau of the Public Debt
•   Verify that payroll processed by third-party providers is complete and accurate.
•   Review the financial reports provided by ARC to ensure that payroll disbursements are
    complete and accurate.
•   Review open accrual reports for completeness, accuracy, and validity.
•   Approve and send revenue and expense accruals to ARC in a timely manner.
•   Review the financial reports prepared by ARC to ensure that all reports prepared for external
    use are complete, accurate, and submitted in a timely manner.
•   Review the financial reports provided by ARC to ensure that budget entries are complete and
    accurate.
•   Send approved budget plans to ARC in a timely manner.
•   Review and approve listing of users with current Oracle, PRISM, webTA, and GovTrip
    access to ensure appropriateness.
•   Ensure exiting employee timecards are coded “Final” as this will help ensure that HR staff
    deactivate the employee’s webTA access.
•   Send valid and approved requests to record manual journal entries to ARC in a timely
    manner.
•   Maintain and communicate to ARC, a list of individuals authorized to submit manual journal
    entries that are initiated by the customer agency.
•   Communicate OMB apportionment status to ARC.
•   Monitor usage of budget authority during periods of operation under a Continuing Resolution
    to ensure that OMB directed apportionment limits are not exceeded.

Specific customer agency control considerations are provided for Control Objectives 1, 2, 3, 5, 6,
8, 9, 10, 11, 12 and 17 in the Control Objectives, Related Controls, and Tests of Operating
Effectiveness section of this report.




                                              19                 Description of Controls Provided
                                                                 by the Bureau of the Public Debt
SUB-SERVICE ORGANIZATIONS

In order to provide financial management services, ARC relies on systems and services provided
by other organizations external to BPD (sub-service organizations). The following describes the
sub-service organizations used by ARC that are included in this report. KPMG LLP’s
examination did not extend to controls of these sub-service organizations and associated systems.


    Name of Sub-service            Name of System               Function/Responsibilities
      Organization



 Treasury Financial            Government Wide            Treasury’s FMS provides reports to
 Management Service            Accounting (GWA)           inform agencies of their Fund Balance
 (FMS)                         Account Statement          With Treasury and to assist agencies
                                                          in reconciling their general ledger
                                                          balances to FMS balances. ARC uses
                                                          these reports for the performance of
                                                          reconciliations.

                               Secure Payment System      ARC uses SPS to process payments
                               (SPS)                      for invoices.

                               CA$HLINK II, GWA           Each month, Treasury’s FMS issues
                               TDO Payments,              the FMS 6652, Statement of
                               Intragovernmental          Differences, to agency location codes
                               Payment and Collection     (ALC) when differences are identified
                               transactions (IPACs)       between the cash activity reported by
                                                          the agency on the FMS 224, Statement
                                                          of Transactions, and data reported to
                                                          Treasury’s CA$HLINK II, GWA
                                                          TDO Payments, and IPAC systems.
                                                          ARC accountants minimize month-
                                                          end disbursement differences by
                                                          comparing preliminary FMS 224 data
                                                          to data obtained from Treasury’s
                                                          CA$HLINK II, GWA TDO Payments,
                                                          and IPAC systems.

                               FACTS I                    Treasury’s FMS maintains the FACTS
                                                          I system. The FACTS I system has
                                                          edit checks to verify that the submitted
                                                          USSGL accounts and attributes are
                                                          valid and have equal debit and credit
                                                          balances.




                                             20                Description of Controls Provided
                                                               by the Bureau of the Public Debt
  Name of Sub-service      Name of System              Function/Responsibilities
    Organization



                        FACTS II                 Treasury’s FMS maintains the FACTS
                                                 II system. The FACTS II system
                                                 performs USSGL edit checks and
                                                 rejects any files that fail the edit
                                                 checks.

Treasury                Treasury Information     For ARC’s Treasury and the
                        Executive Repository     Department of Homeland Security
                        (TIER)                   customer agencies, FACTS I and II
                                                 reporting requirements are met using
                                                 TIER. TIER is Treasury’s
                                                 departmental data warehouse that
                                                 receives monthly uploaded financial
                                                 accounting and budgetary data from
                                                 the Treasury bureaus and other
                                                 reporting entities within the
                                                 Department of the Treasury in a
                                                 standardized format. Data submitted to
                                                 TIER by an ARC accountant is
                                                 validated based on system-defined
                                                 validation checks.

                                                 ARC has customized programs in
                                                 Oracle that extract the accounting and
                                                 budgetary data in the required TIER
                                                 format. TIER has a standardized chart
                                                 of accounts that is compliant with
                                                 USSGL guidance issued by the
                                                 Department of the Treasury. FACTS
                                                 II edit checks are incorporated in the
                                                 TIER validation checks.            After
                                                 submitting the adjusted trial balances
                                                 into TIER, ARC accountants review
                                                 the edit reports and resolve any invalid
                                                 attributes or out-of-balance conditions.
                                                 ARC accountants document this
                                                 review by completing the TIER
                                                 Submission Checklist, which is further
                                                 reviewed by a supervisor.


                        Financial Analysis and   Treasury’s FARS produces financial
                        Reporting System         statements using data bureaus have
                        (FARS)                   submitted to TIER.


                                      21              Description of Controls Provided
                                                      by the Bureau of the Public Debt
   Name of Sub-service           Name of System          Function/Responsibilities
     Organization



Various third-party payroll   Various systems      Third-party     payroll     processors
processors                                         transmit payroll files to ARC during
                                                   the second week after the end of a pay
                                                   period. ARC uses these files for
                                                   processing payroll disbursements.

Northrop Grumman              GovTrip              NGMS developed and hosts the
Mission Systems (NGMS)                             GovTrip system, which is an E-Gov
                                                   travel platform. NGMS is the vendor
                                                   for E-Gov travel selected by the
                                                   Department of the Treasury.


                                                   NGMS maintains the data in their
                                                   Business Data Warehouse for six
                                                   years and three months.


Dun & Bradstreet              Central Contractor   Primary registrant database for the
                              Registration (CCR)   U.S. Federal Government; collects,
                                                   validates, stores and disseminates data
                                                   in support of customer agency
                                                   acquisition missions.

Bureau of the Public Debt     FedInvest            Used to purchase and redeem
                                                   Government Account Series (GAS)
                                                   securities; data source for customer
                                                   agency federal investment interfaced
                                                   transactions with Oracle.
                                                   ARC has migrated the hosting of
Oracle Corporation            Oracle on Demand
                                                   Oracle and PRISM to Oracle on
                                                   Demand for the two of the three
                                                   customer environments (C1 and C2)
                                                   supported by ARC. C1 was cutover to
                                                   Oracle on Demand for production use
                                                   on April 14, 2009, and C2 on May 26,
                                                   2009. The third environment, C3, is
                                                   scheduled to be migrated to Oracle on
                                                   Demand in February 2010.

                                                   Oracle on Demand staff serve as the
                                                   database and systems administrator
                                                   and provides back-up and recovery
                                                   services for Oracle and PRISM.


                                           22           Description of Controls Provided
                                                        by the Bureau of the Public Debt
III.   CONTROL OBJECTIVES, RELATED CONTROLS, AND
           TESTS OF OPERATING EFFECTIVENESS




                      23   Control Objectives, Related Controls, and
                                    Tests of Operating Effectiveness
ACCOUNTING PROCESSING CONTROLS

Control Objective 1 - Obligations

Controls provide reasonable assurance that obligations are authorized, reviewed, documented,
and processed timely in accordance with Administrative Resource Center (ARC) policies and
procedures.

Description of Controls

ARC has documented procedures for staff to follow for the processing of obligations.

PRISM System Interface
An obligation is created when a customer agency enters into a legally binding contract with a
vendor for goods or services. The obligation is entered into the accounting system through an
interface between PRISM and Oracle. The interface changes the budget status from a
commitment (if applicable) to an obligation in the general ledger and updates the corresponding
system tables. The interface between the procurement and accounting systems is real-time. The
procurement system has built-in controls that validate information provided by the customer
agency and ensure proper authorization is granted prior to the interface into the accounting
system. These include:
    • Limited options based on roles;
    • Field inputs limited to look-up tables;
    • Data validations;
    • Pre-populated fields for default or standard entries;
    • Validation of funds availability; and
    • Non-editable fields (i.e., total when amount is per unit).

The interface between PRISM and Oracle is monitored periodically throughout the day by
systems analysts. The analysts periodically monitor a report that identifies transactions that have
been in the Pending Financial Approval status for more than 15 minutes and a report that
identifies transactions that were disapproved during the Pending Financial Approval status. The
analysts monitor the reports to ensure transactions are processed timely and to identify and
investigate any issues. Additionally, for transactions that terminate in Pending Financial Approval
status, the report indicates that when Oracle attempted to insert the record into the general ledger
database a successful message was not returned. The report lists all transactions currently in this
state. The analyst investigates all transactions included in the report to resolve the issues and
change the status accordingly. Additionally, the customer agency approver receives notification
of the failure in their PRISM inbox if the document status is disapproved.

Manually Recorded Obligations – Customer Agency Approval
For obligations not processed through the interface, customer agencies and/or Procurement send
ARC a signed hardcopy of the agreement, or send ARC an e-mail to obligate the funds. Upon
receipt from the customer agency, the ARC technician responsible for processing the customer
agency’s accounting transactions reviews the documentation to ensure that adequate accounting
information has been received, and manually enters the obligation into Oracle. Obligations that
are posted in Oracle are available for both ARC and customer agency review through ad hoc
Discoverer reports.




                                               24       Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
Temporary Duty Travel System Interface
Customer agencies enter travel authorizations into GovTrip and electronically route them to
Approving Officials for review and approval. Approving Officials electronically sign the
authorization with a status of “approved”. All “approved” authorizations are interfaced daily via
batch processing to Oracle which records an obligation in the general ledger. Each day an
interface file is received from Northrop Grumman Mission Systems (NGMS) which is used for
processing, report generation, and identification of exceptions. The file is loaded into the Oracle
interface and accepted records are added to Oracle as obligations in the general ledger. A Travel
Order Status Report is generated and reviewed to identify and correct data interface errors and
exceptions between GovTrip and Oracle. To correct transactions of this nature, the transactions
are manually entered into the system. Approved authorizations in GovTrip are reconciled daily
by an accounting technician with an Oracle generated report to ensure that all GovTrip
authorizations have been interfaced and processed in Oracle. In addition, GovTrip prevents a
user from both entering and approving travel authorizations unless they have authorized access.

Relocation Travel System Interface
RSB personnel enter PCS travel authorizations into moveLINQ, print and send them to
Approving Officials for review and approval. When the signed document is received by RSB,
Relocation Coordinators stamp the document in moveLINQ with a status of “submitted”. All
“submitted” documents are interfaced daily via batch process to Oracle which records an
obligation in the general ledger. Each day an interface file is generated from moveLINQ which is
used for processing, report generation and identification of exceptions. The file is loaded into the
Oracle interface and accepted records are added to Oracle as obligations in the general ledger. A
Travel Order Status exception report is generated and reviewed daily to identify and correct data
interface errors and exceptions between moveLINQ and Oracle. To correct transactions of this
nature, the transactions are manually entered into the system. Submitted authorizations in
moveLINQ are reconciled daily by an accounting technician with an Oracle generated report to
ensure that all moveLINQ authorizations have been interfaced and processed in Oracle. A
weekly review of the reconciliation process is performed by a Travel Analyst and any identified
issues are resolved.

Budget Execution System Controls
Customer agencies can establish and monitor both legally established and internally developed
budget plans in Oracle to ensure obligations are authorized and recorded. Budget plans can be
established at the following levels of the accounting structure in Oracle:
    • Appropriation/Fund (Based upon the customer’s appropriation)
    • Apportionment (Based upon the apportionment schedule on the Standard Form SF32)
    • Cost Center (Based upon the customer’s internal budget plan)
    • Reporting Category (Based upon the customer’s internal budget plan)
    • Project Code (Based upon the customer’s internal budget plan)
    • Budget Object Code (Based upon the customer’s internal budget plan)

Budget execution system controls can be set to prevent spending beyond the budget plan amount
or allow spending over the budget plan amount at any level of the budget plan. Spending beyond
the apportionment and appropriation levels (legal levels) are prohibited. Decisions on control
settings that permit or prevent spending beyond other budget plan levels are made by the
customer agency. System controls are applied at the fund level after passage of appropriation
legislation and a high level budget is loaded. Upon receipt and input of a detailed financial plan,
controls will be established at the level dictated by the customer agency.



                                               25       Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
Budget execution settings are determined by the customer agency and input into Oracle by the
Customer Service Branch (CSB). System settings are reviewed with the customer agency on an
annual basis. Budget plans are input into Oracle by ARC staff, based upon budget plans provided
by customer agencies. Budget plans input into Oracle by ARC Staff are reviewed and signed off
on by an ARC Supervisor.

Document Numbering
All accounting entries recorded into Oracle require a transaction or document identification
number. System controls prohibit the use of duplicate document numbers on obligating
documents. ARC has developed and implemented a standard document-numbering scheme to
avoid duplicate document processing and to enable readers of ARC reports to better identify
and/or determine the nature of transactions processed by ARC. When an ARC user attempts to
enter a transaction identification number that already exists, Oracle issues an error message that
alerts the user of the duplication.

Customer Agency Control Considerations

Customer agencies should establish controls to:

•   Properly approve and accurately enter obligations into the procurement and travel systems in
    the proper period.
•   Send valid requests to record manual obligations to ARC in a timely manner.
•   Review open obligation reports for completeness, accuracy, and validity.
•   Restrict customer agency access to Oracle, Discoverer, PRISM, webTA, and GovTrip to
    authorized individuals.
•   Approve and return relocation travel authorizations to RSB for processing in moveLINQ in a
    timely manner.
•   Communicate customer agency required levels of budget and spending controls to ARC.
•   Compare actual spending results to budgeted amounts.

Tests of Operating Effectiveness and Results of Testing

•   Inspected written procedures for the processing of obligations and determined that the
    procedures were formally documented for the processing of obligations.
•   Inquired of a Financial Systems Analyst in the Quality Control Branch (QCB) and was
    informed that the system validates data prior to the interface to the Oracle system.
•   Observed the validation tables in the PRISM system and noted that the system was configured
    to validate obligation document types and to ensure accuracy and completeness of the data
    interfaced from the PRISM system to the Oracle System.
•   Observed the PRISM Support Desk Staff monitoring the “Pending Financial Approval” and
    “Disapproved during Pending Financial Approval” reports and noted that the reports appeared
    to be monitored, backlogs were not building up, and an issue was noted at the time of
    observation but was investigated and resolved.



                                              26       Control Objectives, Related Controls, and
                                                                Tests of Operating Effectiveness
•   For a selection of manually entered obligations, inspected evidence of customer agency
    approval and determined that manually entered obligations were approved prior to being
    entered into Oracle by ARC Staff.
•   Observed the daily GovTrip interface and noted that approved travel authorizations interfaced
    into the Oracle system and recorded as an obligation.
•   For a selection of dates, inspected GovTrip to Oracle interface reconciliations and determined
    that daily reconciliations were performed to ensure that data from the GovTrip system
    interfaced to the Oracle System.
•   Inspected screen prints from an ARC staff member entering travel vouchers into GovTrip and
    determined that the system required the travel vouchers to be routed to an approving official.
•   Inspected screen prints of an approving official attempt to enter and approve travel vouchers
    and determined that GovTrip prevented a user from both entering and approving travel
    vouchers.
•   Observed the daily moveLINQ interface and noted that approved relocation authorizations
    were interfaced into the Oracle system and recorded as an obligation.
•   For a selection of days inspect the reconciliation of authorization from moveLINQ to the
    Oracle System and determined that the interface activity was reconciled to ensure all
    approved authorizations were completely and accurately interfaced to the Oracle System.
•   For a selection of weeks inspected the review evidence of the reconciliation process
    performed by a RSB Accountant/Travel Assistant and determined that the review was
    performed weekly and any identified issues were resolved.
•   For a selection of customer agencies inspected evidence and determined that for the year they
    specified their budget controls, they were input by CSB staff, and then reviewed by a
    supervisor for completeness and accuracy.
•   Observed an ARC staff member attempt to enter a transaction into Oracle with a document
    number that had already been entered into Oracle and noted that Oracle automatically rejected
    the entry of a duplicate document number.

No exceptions noted.




                                              27        Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
Control Objective 2 - Disbursements

Controls provide reasonable assurance that the disbursement of invoices and vouchers is
authorized, reviewed, processed timely, reconciled, and properly documented in accordance with
ARC policies and procedures.

Description of Controls

ARC has documented procedures for staff to follow for the processing of disbursements.

Customer Agency Invoice Approvals
ARC only processes disbursements for invoices with customer agency approval. Vendors can
either send invoices to the customer agency or ARC, depending on the instructions in the
purchase order. If invoices are sent to the customer agency, the customer agency reviews and
approves the invoice and forwards the invoice and documentation of customer agency approval to
ARC. When invoices are sent to ARC, ARC obtains customer agency approval through an
executed receiving document, or ARC submits the invoice to an authorized customer agency
contact for approval. Appropriate contacts are either specified in the purchase order or are
communicated to ARC by the customer agency. Intragovernmental Payment and Collection
transactions (IPACs) which decrease an ARC customer agency’s Fund Balance with Treasury
(FBWT) must be approved in advance by the customer agency, unless the IPAC was initiated
against the customer agency by another federal agency. To ensure that IPAC transactions
initiated against the customer agency by another federal agency are posted in the proper
accounting period, ARC may obtain customer agency approval after the IPAC has been recorded.
Disbursement may also occur with information from feeder systems (PRISM, GovTrip, and
moveLINQ).

Statistical Sampling of Invoices
All invoices are subject to ARC internal review. System controls set at the user identification
and/or vendor level ensure that payment of invoices greater than $2,500 which are processed by
an accounting technician must be reviewed and approved by a lead accounting technician or an
accountant. Invoices less than $2,500 are subject to statistical sampling by a lead accounting
technician or an accountant. System user access profiles restrict accounting technicians’ ability to
process documents that require secondary review and approval and ensure proper segregation of
duties is maintained. A 100% post audit management review is conducted monthly on all
invoices greater than $2,500 that are both processed and approved by the same individual.

Temporary Duty Travel Vouchers
Customer agencies enter temporary duty travel vouchers into GovTrip and electronically route
them to Approving Officials for review and approval. Approving Officials electronically sign the
voucher with a status of “approved”. All “approved” travel vouchers are interfaced daily via
batch processing to Oracle which records a disbursement in the general ledger. Each day an
interface file is received from the GovTrip System which is used for processing, report
generation, and identification of exceptions. The file is loaded into the Oracle interface and
accepted records are added to Oracle as disbursements in the general ledger. The travel voucher
is then matched against an existing authorization. A Travel Voucher Status Report is generated
and reviewed to identify and correct data interface errors and exceptions between GovTrip and
Oracle. To correct transactions of this nature, the transactions are manually entered into the
system. Approved vouchers in GovTrip are reconciled daily by an accounting technician with an
Oracle generated report to ensure that all GovTrip vouchers have been interfaced and processed


                                               28       Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
in Oracle.   In addition, GovTrip prevents a user from both entering and approving travel
vouchers.

Statistical Sampling of Temporary Duty Travel Vouchers
Temporary Duty Services Branch (TDSB) staff completes a post audit review of temporary duty
travel vouchers to verify the accuracy of the interfaced data and compliance with Federal Travel
Regulations (FTR), using statistical sampling procedures to select documents less than $2,500,
based on the customer agency’s travel policy (FTR or FTR/ARC). A 100% post audit review is
conducted on all documents greater than $2,500. Errors discovered during the review are sent via
e-mail to the traveler or document preparer and approving official to review and/or take action.
Billing documents are created for amounts owed by a traveler of $25 or greater, resulting from an
overpayment in which the customer agency has declared the overpayment a debt of the
government. The traveler sends a check to cover the overpayment.

Relocation Services Travel Vouchers
RSB personnel enter and audit each PCS travel voucher in moveLINQ, print and then send them
to Approving Officials for review and approval. When the signed document is received by RSB,
Relocation Coordinators stamp the document in moveLINQ with a status of “submitted”. All
“submitted” documents are interfaced daily via batch processing to Oracle which records a
disbursement in the general ledger. Submitted vouchers in moveLINQ are reconciled daily by an
Accounting Technician with an Oracle generated report to ensure that all moveLINQ vouchers
have been processed in Oracle. A weekly review of the reconciliation process is performed by a
Travel Analyst.

Payment Date Calculations
Based on the customer agency’s contracts with its suppliers, ARC staff enters the invoice date
and the later of the invoice receipt date, or the earlier of the formal or constructive acceptance
dates into Oracle based on the supporting documentation from the customer agency. On a daily
basis, Oracle selects invoices that are due for payment and creates files for manual uploading into
Treasury’s Secure Payment System (SPS). The ARC SPS certifying officer compares the number
and dollar amount of payments from the SPS generated schedule to the payment files generated
by Oracle to ensure all payment files have been uploaded to Treasury. For invoices that are
subject to the Prompt Payment Act, Oracle schedules payments to disburse 30 days after the later
of the invoice receipt date and the earlier of the date of formal or constructive acceptance (unless
the supplier’s contract or invoice states otherwise). Any payments that are subject to the Prompt
Payment Act that are paid after their Oracle scheduled due date are subject to prompt pay interest
to cover the period the payment was due but not paid. Oracle automatically determines if interest
is due based on the dates in the accounting system. If interest is due, Oracle calculates interest
and generates an interest payment to the vendor, provided the total interest is more than one
dollar.

Reconciliation – Fund Balance With Treasury Activity
Each month, Treasury’s Financial Management Service (FMS) issues the Statement of
Differences to agency location codes (ALC) when differences are identified between the cash
activity reported by the agency on the FMS 224, Statement of Transactions, and data reported to
Treasury’s CA$HLINK II, GWA TDO Payments, and IPAC systems. ARC accountants
minimize month-end disbursement differences by comparing preliminary FMS 224 disbursement
data to data obtained from Treasury’s CA$HLINK II, GWA TDO Payments, and IPAC systems.
Any differences identified by the accountant are corrected by an accounting technician or another
accountant prior to the close of the accounting period. ARC accountants prepare monthly
Statement of Differences reconciliations for supervisory review. If a Statement of Differences was

                                               29       Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
received, the transaction(s) that caused the difference is (are) identified and if necessary,
correcting entries are posted by an accounting technician or another accountant and reported in
the subsequent accounting period.

Budget Execution System Controls
Customer agencies can establish and monitor both legally established and internally developed
budget plans in Oracle to ensure obligations are authorized and recorded. Budget plans can be
established at the following levels of the accounting structure in Oracle:
    • Appropriation/Fund (Based upon the customer’s appropriation)
    • Apportionment (Based upon the apportionment schedule on the SF132)
    • Cost Center (Based upon the customer’s internal budget plan)
    • Reporting Category (Based upon the customer’s internal budget plan)
    • Project Code (Based upon the customer’s internal budget plan)
    • Budget Object Code (Based upon the customer’s internal budget plan)

Budget execution system controls can be set to prevent spending beyond the budget plan amount
or allow spending over the budget plan amount at any level of the budget plan. Spending beyond
the apportionment and appropriation levels (legal levels) are prohibited. Decisions on control
settings that permit or prevent spending beyond other budget plan levels are made by the
customer agency. System controls are applied at the fund level after passage of appropriation
legislation and a high level budget is loaded. Upon receipt and input of a detailed financial plan,
controls will be established at the level dictated by the customer agency.

Budget execution settings are determined by the customer agency and input into Oracle by the
CSB. System settings are reviewed with the customer agency on an annual basis. Budget plans
are input into Oracle by ARC staff, based upon budget plans provided by customer agencies.

Document Numbering
All accounting entries recorded into Oracle require a transaction or document identification
number. System controls prohibit the use of duplicate document numbers for the same vendor on
accounts payable transactions. ARC has developed and implemented a standard document-
numbering scheme to avoid duplicate document processing and to enable readers of ARC reports
to better identify and/or determine the nature of transactions processed by ARC. When an ARC
user attempts to enter a transaction identification number that already exists, Oracle issues an
error message that alerts the user of the duplication.

Customer Agency Control Considerations

Customer agencies should establish controls to:

•   Review the financial reports provided by ARC to ensure that disbursement transactions are
    complete and accurate.
•   Approve invoices for payment and send approved invoices to ARC in a timely manner.
•   Ensure that invoices properly reflect the invoice receipt date and formal or constructive
    acceptance date according to the Prompt Payment Act.
•   Approve travel vouchers and accurately enter the vouchers into GovTrip in the proper period.
•   Approve and return relocation travel vouchers to RSB for processing in moveLINQ in a
    timely manner.

                                               30        Control Objectives, Related Controls, and
                                                                  Tests of Operating Effectiveness
•   Maintain and communicate to ARC, a list of individuals authorized to approve invoices and
    travel vouchers when it is not communicated in the authorizing agreement.
•   Communicate customer agency required levels of budget and spending controls to ARC.

Tests of Operating Effectiveness and Results of Testing


•   Inspected written procedures for the processing of disbursements and determined that the
    procedures were formally documented for the processing of disbursements.
•   For a selection of invoices inspected documentation of Customer Agency authorization and
    related general ledger entries and determined that disbursements were authorized and
    processed timely.
•   For a selection of Intergovernmental Payment and Collection transactions inspected
    documentation of Customer Agency authorization and related general ledger entries and
    determined that disbursements were authorized and processed timely.
•   Observed an accountant process an invoice over $2,500 and determined that the system
    automatically routed the invoice to a secondary lead accounting technician or an accountant
    for review and approval.
•   For a selection of months inspected evidence and determined that the 100% post audit
    management reviews were conducted monthly on all invoices greater than $2,500 which were
    both processed and approved by the same individual.
•   Observed the daily GovTrip interface and noted that approved travel authorizations interfaced
    into the Oracle system and were recorded as an obligation.
•   For a selection of days inspected GovTrip voucher reconciliations and determined that
    approved vouchers in GovTrip were reconciled daily to Oracle by an accounting technician.
•   Observed a user in GovTrip attempting to approve their own travel voucher and noted that the
    system automically prevented the user from approving their own travel voucher.
•   For a selection of months inspected evidence of the statistical review of invoices less than
    $2,500 and determined that the statistical review was performed subject to statistical sampling
    by a lead accounting technician or an accountant.
•   For a selection of months, inspected evidence of the supervisor review of temporary duty
    travel voucher invoices over $2,500 that were processed and approved by the same individual
    and determined that the supervisor reviewed the invoices and performed follow-up to validate
    the self-approval.
•   Observed relocation vouchers interfaced into Oracle and determined that the approved
    vouchers were interfaced via automated batch process.
•   For a selection of days inspected evidence and determined that the vouchers in moveLINQ
    were reconciled daily by an Accounting Technician within an Oracle generated report.
•   For a selection of weeks inspected reconciliation and determined that a weekly reconciliation
    process was performed by an RSB Accountant/Travel Assistant.
•   For a selection of days, inspected evidence that the ARC SPS certifying officer compared the
    number and dollar amount of payments and determined that the review was completed daily
    to ensure interfaces were uploaded completely.

                                              31        Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
•   For a selection of invoices subject to the Prompt Payment Act, inspected documentation and
    determined that Oracle schedules payments to disburse 30 days after the later of the invoice
    receipt date and the earlier of the date of formal or constructive acceptance (unless the
    supplier’s contract or invoice states otherwise).
•   For a selection of late payments, inspected evidence and determined that proper interest was
    calculated and paid based on the number of days the payment was late.
•   For an example late payment recalculated the interest owed and determined that Oracle
    calculated interest and generated an interest payment to the vendor.
•   For a selection of months, inspected the Statement of Differences and determined that
    supervisors reviewed the reconciliations.
•   For identified differences from the selection of months and customer agencies, inspected
    evidence and determined that the accounting technicians or another accountant corrected
    differences prior to the close of the accounting period or in the subsequent accounting period
    if necessary based on timing.
•   For a selection of customer agencies inspected evidence and determined that for the year they
    specified their budget controls, they were input by CSB staff, and then reviewed by a
    supervisor for completeness and accuracy.
•   Observed an ARC staff member attempt to enter a transaction into Oracle with a document
    number that had already been entered into Oracle and noted that Oracle automatically rejected
    the entry of a duplicate document number.

No exceptions noted.




                                              32        Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
Control Objective 3 – Unfilled Customer Orders, Receivables, and Cash Receipts

Controls provide reasonable assurance that unfilled customer orders, receivables, and cash
receipts are reconciled and properly documented in accordance with ARC policies and
procedures.

Description of Controls

ARC has documented procedures for staff to follow for the processing of unfilled customer
orders, receivables, and cash receipts.

Customer Agency Approval
ARC only processes unfilled customer orders, receivables, and cash receipts with customer
agency approval, with the exception of checks received for deposit directly by ARC on the
customer’s behalf for accounts payable invoice refunds of overpayments and/or vendor rebates.
Customer agencies either send signed source documents or provide a summary of their
transactions via fax or e-mail. ARC enters all transactions into Oracle, which are available for
review through reporting systems. To help ensure that cash receipts are posted in the proper
accounting period, ARC may obtain customer agency approval after the cash receipt has been
recorded.

Reconciliation – Fund Balance With Treasury Activity
Each month, Treasury’s FMS issues the Statement of Differences to ALCs when differences are
identified between the cash activity reported by the agency on the FMS 224, Statement of
Transactions, and data reported to Treasury’s CA$HLINK II and IPAC systems. ARC
accountants minimize month-end differences relating to collections by comparing preliminary
FMS 224 collection data to Treasury’s CA$HLINK II and IPAC systems. Any differences
identified by the accountant are corrected by an accounting technician or another accountant prior
to the close of the accounting period. ARC accountants prepare monthly Statement of Differences
reconciliations for supervisory review. If a Statement of Differences was received, the
transaction(s) that caused the difference is (are) identified and if necessary, correcting entries are
posted by an accounting technician or another accountant and reported in the subsequent
accounting period.

Reporting - Receivables
ARC accountants prepare and submit a quarterly Report on Receivables Due from the Public for
all customer agencies. This report requires agencies to track the collection of receivables and
report on the status of delinquent balances according to an aging schedule. Accountants that are
responsible for preparing the Report on Receivables Due from the Public review and reconcile all
activity (i.e., new receivables, revenue accruals, collections, adjustments and write-offs) with the
public on a quarterly basis. An ARC supervisory accountant reviews the report. Customer
agencies are responsible for monitoring and pursuing collection of delinquent balances. On an
annual basis, the customer agency’s Chief Financial Officer must certify that the report submitted
to the Department of the Treasury is accurate and consistent with agency accounting systems.

Intragovernmental Transactions
ARC adheres to applicable intragovernmental elimination guidance. This involves recording
transactions at a level that allows for identification of its governmental trading partners and for
reconciling the transactions/balances with trading partners on a quarterly basis. For its non-
Treasury and non-Homeland Security customer agencies, ARC accountants reconcile fiduciary
account balances with their trading partners (Bureau of Public Debt, Office of Personnel

                                                33        Control Objectives, Related Controls, and
                                                                   Tests of Operating Effectiveness
Management and Department of Labor) after uploading account balances into the
Intragovernmental Fiduciary Confirmation System (IFCS). The Department of Treasury and the
Department of Homeland Security utilize IFCS to reconcile Treasury and Homeland Security
agency fiduciary account balances with trading partners. For the non-fiduciary transactions of its
customer agencies, ARC accountants prepare and submit confirmations to the appropriate trading
partners in accordance with the elimination reconciliation guidance. Upon submitting the
confirmations to the trading partners, ARC works with the trading partners to reconcile
transactions/balances and identify and record any necessary adjustments. Reconciliations are not
performed for non-Treasury customer agencies. Non-Treasury customer agencies receive
confirmations only.

Document Numbering
All accounting entries recorded in Oracle require a transaction or document identification
number. System controls prohibit the use of duplicate document numbers on unfilled customer
orders and receivables. A system control alerts the user of the use of duplicate document numbers
on cash receipt and advance transactions. ARC has developed and implemented a standard
document-numbering scheme to avoid duplicate document processing and to enable readers of
ARC reports to better identify and/or determine the nature of transactions processed by ARC.
When an ARC user attempts to enter a transaction identification number that already exists,
Oracle issues an error message that alerts the user of the duplication.

Customer Agency Control Consideration

Customer agencies should establish controls to:

•   Send approved and accurate documentation of unfilled customer orders, receivables, and cash
    receipts, to ARC in the proper period.
•   Review unfilled customer orders, receivable and advance reports for completeness, accuracy,
    and validity.
•   Monitor and pursue collection of delinquent balances.

Tests of Operating Effectiveness and Results of Testing

•   Inspected written procedures for the processing of unfilled customer orders, cash receipts,
    receivables, advances, and write-offs and observed ARC personnel process transactions and
    noted that the transactions were processed in accordance with the procedures.
•   For a selection of unfilled customer orders inspected documentation of Customer Agency
    authorization and determined that transactions are authorized by Customer Agencies.
•   For a selection of receivables inspect documentation of Customer Agency authorization and
    determined that the transactions were authorized by Customer Agencies.
•   For a selection of cash receipts, inspected documentation of Customer Agency authorization
    and determined that transactions were authorized by Customer Agencies.
•   For a selection of months, inspected Statement of Differences reconciliations and determined
    that reconciliations were documented and that any correcting entries were posted by an
    accounting technician or another accountant and reported in the subsequent accounting
    period.

                                              34       Control Objectives, Related Controls, and
                                                                Tests of Operating Effectiveness
•   For a selection of quarters, inspected the Report on Receivables Due from the Public
    reconciliations and determined that reconciliations were documented.
•   For a selection of quarters, inspected Reports on Receivables Due from the Public and
    determined that they were reviewed by an ARC supervisory accountant.
•   Inspected a quarterly selection of intra-governmental confirmations and reconciliations and
    determined that confirmations were sent, reconciliations were documented, and trading
    partners identified.
•   Inspected a quarterly selection of non-Treasury and non-Homeland Security customer agency
    intra-governmental Fiduciary Confirmation System balances and determined that fiduciary
    account balances were reconciled with trading partner balances.
•   Inspected a selection of non-fiduciary transaction confirmations of ARC customer agencies
    and determined that ARC accountants prepared and submitted confirmations to the
    appropriate trading partners in accordance with the elimination reconciliation guidance.
•   Inspected a selection of transaction(s)/balance(s) reconciliations and determined that upon
    submitting the confirmations to the trading partners, ARC worked with the trading partners to
    reconcile transactions/balances and identify and record any necessary adjustments.
•   Inspected a selection of reconciliations and determined that confirmations were performed for
    non-Treasury customer agencies.
•   Observed an ARC staff member attempt to enter into Oracle, a transaction with a document
    number that had already been entered into Oracle noted that Oracle automatically rejected the
    entry of a duplicate document number.


No exceptions noted.




                                              35       Control Objectives, Related Controls, and
                                                                Tests of Operating Effectiveness
Control Objective 4 - Deposits

Controls provide reasonable assurance that checks are secure and deposited timely by appropriate
personnel and documented in accordance with ARC policies and procedures.

Description of Controls

ARC has documented procedures for the safeguarding and recording of deposits.

Safeguarding Checks
Checks received by the mailroom are scanned and a batch ticket with the number of checks
received is generated. Copies of the batch ticket along with the checks are sent via confidential
mail to the appropriate ARC branch. An ARC accounting technician or administrative staff
member who does not have accounting system access to post account receivable transactions,
receives, opens and logs all checks received in the branch’s check deposit log. The number of
checks received is compared to the number of checks listed on the batch ticket. Checks are to be
deposited as soon as possible after the purpose and validity of the check’s issuance are identified.
While the accounting technician responsible for processing deposits for the customer agency is
researching the check’s purpose and validity, the check is locked in the ARC administrative staff
member’s drawer until it is ready to be deposited.

Manual Deposits – Segregation of Duties
When the check is ready for manual deposit, a deposit ticket and the check are placed in a locked
bag and picked up by the mail clerk. A copy of the deposit ticket is retained by the ARC
administrative staff member for comparison with the receipt and deposit ticket signed by the bank
teller. The mail clerk delivers the locked bag containing the deposit ticket and checks to the local
federal depository. The bag containing the bank teller’s deposit ticket and receipt are returned to
the branch office that processed the deposit. After the bank teller receipt and deposit ticket are
compared to the copy retained by the branch and the ARC administrative staff member updates
the check deposit log to record the date the deposit was made, an accounting technician processes
the cash receipt in the accounting system.

Paper Check Conversion System Deposits and Reconciliation
For customers using the Paper Check Conversion (PCC) system, an ARC accounting technician
or administrative staff member will scan each check into the PCC system. The batch list is
automatically temporarily saved to the server until it is transmitted to the Federal Reserve Bank
(FRB) by the ARC accounting technician or administrative staff member. Upon settlement with
the FRB, the ARC accounting technician reconciles the batch list with the paper checks and signs
off to indicate the reconciliation is complete. After reconciliation, the checks are stamped
“VOID” by the ARC accounting technician or administrative staff member and held awaiting
confirmation of the deposit in the Federal Reserve's deposit application. Upon confirmation, the
ARC accounting technician or administrative staff member destroys the voided checks. The cash
receipt is recorded in Oracle by an independent ARC accounting technician and reviewed and
approved by an accountant.

Tests of Operating Effectiveness and Results of Testing

•   Inspected written procedures for the safeguarding and recording of deposits and determined
    that ARC had documented procedures for the safeguarding and recording of deposits.



                                               36       Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
•   Inspected the checks received by the mailroom and the associated batch tickets and
    determined that a batch ticket with the number of checks received was generated.
•   From a selection of batch tickets generated by the mailroom, inspected notes and determined
    that copies of batch tickets were sent via confidential mail to the appropriate ARC branch.
•   Inspected a selection of check logs and determined that an ARC administrative staff member
    who did not have accounting system access to post account receivable transactions, received,
    opened and logged all checks received in the branch’s check deposit log.
•   Inspected a selection of checks received and associated batch tickets and determined that the
    number of checks received was compared to the number of checks listed on the batch ticket.
•   Inspected a selection of check deposit records and check issuance attributes and determined
    that checks were deposited in a timely manner after the purpose and validity of the check’s
    issuance were identified.
•   For a selection of un-deposited checks from the check deposit log, observed the checks and
    noted they were properly secured in a locked drawer.
•   For a selection of checks ready for deposit, observed that the deposit tickets and the checks
    were placed in a locked bag and picked up by the mail clerk.
•   Inspected a selection of signed check deposit logs and determined that a copy of the checks
    was retained by the ARC administrative staff member for comparison with the receipt and
    deposit ticket signed by the bank teller.
•   Inspected a selection of reconciliations from the deposit tickets to the bank teller deposit
    tickets and receipts and determined that the reconciliations were performed.
•   For a selection of dates, inspected PCC reconciliations and determined that the reconciliations
    were performed and exceptions were resolved.


No exceptions noted.




                                                37        Control Objectives, Related Controls, and
                                                                   Tests of Operating Effectiveness
Control Objective 5 – Payroll Accruals

Controls provide reasonable assurance that period-end payroll accruals are processed timely,
reviewed, and properly documented in accordance with ARC policies and procedures.

Description of Controls

ARC has documented procedures for staff to follow for the processing of payroll accruals.

System Calculation of Accruals
Payroll accruals are recorded on a monthly basis and reversed in the subsequent accounting
period. The payroll accrual is a prorated calculation performed by the accounting system that is
based on the most recent payroll disbursement data available. To make its calculation, the
accounting system requires a payroll accountant to enter specific parameters (e.g., number or
percentage of workdays to accrue and the base pay period number).

Manual Verification of Accruals
A payroll accountant independently reviews the accounting system calculated accrual for
reasonableness. The payroll accountant recalculates the accrual using an Excel spreadsheet to
multiply the last full pay period disbursement by the number of days accrued divided by ten days.
The payroll accountant compares the recalculated payroll amount to the accounting system
calculation for reasonableness. The payroll accountant researches and identifies any material
differences not explained by non-recurring budget object classes. Those differences are corrected
in the period in which they are identified. The payroll accountant provides the spreadsheet to a
supervisor or manager for review and approval.

Customer Agency Control Considerations

•   Review the financial reports provided by ARC to ensure that payroll accruals are complete
    and accurate.

Tests of Operating Effectiveness and Results of Testing


•   Inspected written procedures for the processing of payroll accruals and determined that the
    procedures were formally documented for the processing of payroll accruals.
•   For a selection of months, inspected payroll accrual invoices for a selection of customer
    agencies for entry into the system and determined that payroll accruals were entered timely.
•   For a selection of months for a selection of customer agencies, inspected supervisor signed
    payroll verification spreadsheets and payroll accrual invoices for entry into Oracle and
    determined that payroll accruals were verified and entered timely and then reviewed and
    approved by a supervisor or manager.

No exceptions noted.




                                              38        Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
Control Objective 6 – Payroll Disbursements

Controls provide reasonable assurance that payroll disbursement data (disbursed by a third-party)
is reviewed, reconciled, and properly documented in accordance with ARC policies and
procedures.

Description of Controls

ARC has documented procedures for staff to follow for the processing of payroll disbursements.

Automated Payroll Posting Process
Third-party payroll processors transmit payroll files to ARC during the first and/or second weeks
after the end of a pay period, depending on the payroll provider and the need to record payroll
adjustments. Upon converting the data into a format that can be uploaded into Oracle, the ARC
payroll accountant reconciles the converted data to the original raw data from the third-party
processors. The ARC payroll accountant processes payroll entries using a batch interface that
posts summary payroll data to Oracle. The payroll accountant reviews and corrects transactions
that reject in the interface. A Discoverer report is used to identify those records that reject. The
payroll accountant contacts the customer for resolution of erroneous accounting codes, funding
issues, or other circumstances that would prevent the payroll from being recorded. Until the
errors are cleared, the data are viewed as invalid and will not be able to be transferred to Oracle.
If the third-party payroll processor provides adjustment files for additional transactions between
main payroll files, the ARC payroll accountant follows the same procedure for processing these
files.

Reconciliation – Payroll Activity
Payroll accountants prepare a monthly reconciliation of payroll disbursements recorded in Oracle
and payroll disbursements reported by the third-party payroll processors. The payroll accountant
investigates and resolves any differences identified. This reconciliation is reviewed and approved
by the supervisor or manager of ARC’s Central Accounting Branch. In addition, ARC branch
accountants prepare monthly GWA Account Statement reconciliations from the general ledger to
Treasury’s record. Any reconciliation differences identified by the branch accountant that
prepares the GWA Account Statement reconciliation requiring correction are posted by another
accountant or accounting technician in a subsequent accounting period. ARC supervisory
accountants review and approve the GWA Account Statement/Fund Balance with Treasury
reconciliations.

Customer Agency Control Considerations

Customer agencies should establish controls to:

•   Verify that payroll processed by third-party providers is complete and accurate.
•   Review the financial reports provided by ARC to ensure that payroll disbursements are
    complete and accurate.




                                               39       Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
Tests of Operating Effectiveness and Results of Testing

•   Inspected written procedures for the processing of payroll disbursements and determined that
    consistent use of the procedures by staff was likely to help prevent the inaccurate,
    unauthorized, or untimely entry of payroll disbursements into ARC information systems.
•   Inspected an interface error report and determined that during the interface, input files were
    checked for errors and interface error reports were created if errors were identified and
    determined that the data would not interface until errors were corrected.
•   For a selection of months, inspected payroll reconciliations and determined that
    reconciliations were performed and that any exceptions were resolved.
•   For a selection of months, inspected GWA Account Statement, Undisbursed Appropriation
    Account Ledger reconciliations and determined that reconciliations were performed and that
    any exceptions were resolved

No exceptions noted.




                                               40        Control Objectives, Related Controls, and
                                                                  Tests of Operating Effectiveness
Control Objective 7 - USSGL

Controls provide reasonable assurance that transactions are processed in accordance with the U.S.
Standard General Ledger (USSGL) and Treasury Financial Manual (TFM) guidance.

Description of Controls

ARC has documented procedures for processing transactions consistent with the USSGL.

Transaction Set-up Controls
ARC records proprietary and budgetary accounting entries using the USSGL at the transaction
level. This is accomplished using a combination of transaction code, system setup, and data entry
in Oracle. In addition, Oracle cross-validation rules have been established to prevent transactions
from being processed to inappropriate USSGL accounts.

ARC follows the TFM to establish accounting transaction posting models in Oracle. System
administrators require written authorization from a supervisor or manager to establish new
posting models for transaction processing.

On an annual basis, ARC supervisors and managers review the USSGL Board’s proposed and
approved additions, deletions and/or modifications to USSGL account titles and/or account
descriptions to determine their applicability to ARC customer agencies. Once the changes to the
USSGL are approved by Treasury’s FMS and the new TFM guidance is issued (generally mid-
summer), ARC supervisors and managers communicate the appropriate changes to system
administrators to ensure the accounting transaction posting models are revised. All USSGL
related system modifications are completed by the start of the first accounting period of the new
fiscal year.

General Ledger Account Reconciliations
Accountants perform general ledger account reconciliations (utilizing accounting system
subledgers or Excel spreadsheets) on balance sheet accounts except where account subledgers are
not made available to ARC, for supervisory review, to ensure related accounting transactions
were posted to the appropriate general ledger accounts. ARC accountants prepare budgetary to
proprietary account relationship reconciliations on a monthly basis, for supervisory review, to
ensure complete general ledger account posting for all recorded transactions. An accounting
technician or an accountant corrects invalid out-of-balance relationships.

FACTS I Edit Checks
ARC enters pre-closing adjusted trial balances for its non-Treasury customers, except for the
Department of Homeland Security, into the FACTS I system at the Treasury appropriation/fund
group level using USSGL accounts and attributes. Treasury’s FMS maintains the FACTS I
system. The FACTS I system checks that the trial balance has, in aggregate, equal debit and
credit balances before the trial balance can be submitted in FACTS I. FACTS I also flags
abnormal balances for scrutiny by an ARC accountant. After entering the adjusted trial balances
into FACTS I, ARC reviews the submitted balances and resolves any invalid abnormal balances
or out-of-balance conditions. Once any necessary corrections have been made, the accountant
submits the adjusted trial balance into the FACTS I system.

FACTS II Edit Checks
ARC submits the FACTS II files for its non-Treasury customers, except for the Department of
Homeland Security, using a bulk file upload. Accountants create the bulk files by running a job

                                              41        Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
within the Oracle application. Oracle requires the data to pass several edit checks before it will
create the bulk file. ARC manually uploads the FACTS II files into the FACTS II system.
Treasury’s FMS maintains the FACTS II system. The FACTS II system performs USSGL edit
checks and rejects any files that fail the edit checks. ARC investigates and resolves any files
rejected by the FACTS II system.

Treasury Information Executive Repository (TIER) Validation Checks
For ARC’s Treasury and Department of Homeland Security customer agencies, FACTS I and II
reporting requirements are met using TIER. TIER is Treasury’s departmental data warehouse
that receives monthly uploaded financial accounting and budgetary data from the bureaus and
other reporting entities in a standardized format. Data submitted to TIER by an ARC accountant
is validated based on system-defined validation checks.

ARC has customized programs in Oracle that extract the accounting and budgetary data in the
required TIER format. TIER has a standardized chart of accounts that is compliant with USSGL
guidance issued by the Department of the Treasury. FACTS II edit checks are incorporated in the
TIER validation checks. After submitting the adjusted trial balances into TIER, ARC accountants
review the edit reports and resolve any invalid attributes or out-of-balance conditions. ARC
accountants document this review by completing the TIER Submission Checklist, which is
further reviewed by a supervisor.

Financial Statement Crosswalks
ARC accountants prepare a Balance Sheet, Statement of Net Cost and Statement of Budgetary
Resources for all customer agencies that are covered by the Chief Financial Officer Act and the
Accountability of Tax Dollars Act of 2002. The statements are submitted each quarter to the
Director of the Office of Management and Budget (OMB) and the Congress. Additionally, ARC
accountants prepare the Statement of Changes in Net Position, and Statement of Custodial Activity
(when applicable) for all customer agencies. ARC accountants compare TFM financial statement
crosswalks to ARC’s internally prepared financial statements to ensure compliance with the
reporting requirements. ARC investigates and resolves any differences between TFM financial
statement crosswalks and ARC’s internally prepared financial statements.

Financial Statement Review
For Department of Treasury and Department of Homeland Security customer agencies, quarterly
financial statements are produced by departmental systems using the data submitted in TIER.
Quarterly consolidated financial statements are submitted to the Director of OMB and the
Congress by the Department. ARC accountants compare the quarterly financial statements to
ARC’s internally prepared financial statements, which is further reviewed by a supervisor, and
any differences are resolved.

Financial Statement Variance Analysis
For both Department of Treasury and Department of Homeland Security customer agencies,
accountants prepare a quarterly financial statement variance analysis. Explanations for variances
that exceed Department materiality thresholds must be provided to the Department. The
Department submits a consolidated analysis to OMB. The bureau variance analysis is reviewed
by an ARC supervisory accountant and approved by the bureau CFO or designee prior to
submission to the Department. The Homeland Security bureau variance analysis is also certified
by an ARC manager as part of the CFO certification letter.

For non-Treasury and non-Homeland Security customer agencies, accountants prepare a quarterly
financial statement variance analysis for interim periods based on the guidance in OMB Circular

                                              42       Control Objectives, Related Controls, and
                                                                Tests of Operating Effectiveness
A-136. Explanations for variances that exceed the OMB Circular A-136 guidelines are provided
to OMB. The variance analysis is reviewed by an ARC supervisory accountant prior to
submission to OMB.

Tests of Operating Effectiveness and Results of Testing


•   Inspected written procedures for the processing of transactions consistent with the USSGL
    and determined that the procedures were documented.
•   Observed the processing of a transaction to an inappropriate USSGL account and noted the
    existence of Oracle cross-validation rules.
•   Inspected a list of users with access to change posting models and determined that the system
    administrators had access to administer posting models.
•   For a selection of posting model changes and additions, inspected ARC supervisory approval
    of the changes and inspect TFM/USSGL guidance and determined that the changes and
    additions were authorized and that they were in agreement with TFM/USSGL guidance.
•   Inspected evidence of the annual review of USSGL account titles and descriptions and
    determined that the annual review was performed by ARC supervisors and managers.
•   For a selection of months, inspected monthly general ledger account reconciliations and
    determined that the reconciliations were performed, any exceptions were resolved and the
    reconciliation was reviewed by an ARC supervisor.
•   Inspected a selection of FACTS I edit check reports and determined that FACTS I were
    completed, reviewed, and any issues were resolved.
•   Inspected a selection of Reporting and Reconciliation Internal Control Checklists and
    determined that the FACTS I was completed.
•   Observed the staff run the Oracle job that creates the FACTS II bulk data upload file and
    noted that the Oracle edit checks were applied to the data, and that the ARC accountant
    resolved any exceptions.
•   Inspected a selection of TIER Submission Checklists and determined that TIER submissions
    were reviewed by an ARC supervisor.
•   For a selection of quarters for a selection of customer agencies, inspected ARC comparison of
    FMS financial statement crosswalk with ARC’s internally prepared financial statements and
    determined that ARC complied with reporting requirements.
•   Inspected results ARC investigation of Treasury’s financial statement crosswalk and ARC’s
    internally prepared financial statements and determined that ARC investigated and resolved
    any differences.
•   Inspected a quarterly selection of financial statement reviews and determined that the
    reconciliations were reviewed and approved by an ARC supervisor.
•   For a selection of months, inspected reconciliation of financial statements prepared by
    Treasury to internally prepared financial statements and determined that reconciliations were
    performed, any exceptions were resolved and they were reviewed by a supervisory accountant
    before submission.

No exceptions noted.

                                              43        Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
Control Objective 8 - Accruals

Controls provide reasonable assurance that the period-end accruals are authorized, processed
timely, reviewed, reconciled, and properly documented in accordance with ARC policies and
procedures.

Description of Controls

ARC has documented procedures for staff to follow for the processing of accruals.

Customer Review of Revenue and Expense Accruals
Accounting technicians record period-end accruals for goods and services provided/received, but
not billed/invoiced, in Oracle based on instruction provided from the customer agency.

For all customer agencies, except the Treasury Franchise Fund, accounting technicians record
period-end accruals for goods and services provided, but not billed in the accounting system
through standard accrual transactions. For Treasury Franchise Fund customer agencies,
accounting technicians record period-end accruals for goods and services provided but not billed
in Oracle using an automated journal entry process. The amounts recorded are based on
information provided by e-mail from the customer agency. Accounting technicians enter
information received from the customer agency into a spreadsheet template. An accountant
reviews the spreadsheet and converts it into a data file that is automatically loaded into Oracle
and reviewed and approved by a supervisory accountant.

Non-Invoice Accrual Reviews
Accountants record non-invoice related expense accruals, such as workers' compensation and
leave liability in Oracle. The workers' compensation accruals are based on historical trend
analysis and/or actual costs incurred. The leave liability accruals are based on data provided by
the customer agency's payroll provider or Human Resources office. For applicable customer
agencies, the ARC payroll accountant processes payroll leave accrual entries using a batch
interface that posts summary payroll data to Oracle. For non-batch interfaced leave accruals, a
supervisory accountant reviews the accrued employee benefits to determine that the accrual is
processed and posted.

Scorecard Review
Treasury's monthly data scorecard verifies that certain non-invoice related expense accruals are
recorded on at least a quarterly basis. Supervisory accountants validate the quality of TIER data
by reviewing an ARC accountant-prepared TIER Submission Checklist, which includes
verification that non-invoice related expense accruals are posted at least quarterly. Additionally,
both ARC supervisory accountants and managers maintain the Treasury’s monthly data quality
scorecard to be able to review as needed in order to monitor the quality of the data submitted.

General Ledger to Subledger Reconciliation
On a monthly basis, ARC accountants prepare a reconciliation of revenue and expense accrual
balances in the general ledger to the subledger detail, which is reviewed by a supervisor.
Accountants reconcile only billed revenue accruals since unbilled revenue accruals are recorded
directly in the general ledger. Any differences identified are corrected by an accounting
technician or accountant in the subsequent accounting period.




                                              44        Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
Budget Execution System Controls
Customer agencies can establish and monitor both legally established and internally developed
budget plans in Oracle to ensure obligations are authorized and recorded. Budget plans can be
established at the following levels of the accounting structure in Oracle:
    • Appropriation/Fund (Based upon the customer’s appropriation)
    • Apportionment (Based upon the apportionment schedule on the SF132)
    • Cost Center (Based upon the customer’s internal budget plan)
    • Reporting Category (Based upon the customer’s internal budget plan)
    • Project Code (Based upon the customer’s internal budget plan)
    • Budget Object Code (Based upon the customer’s internal budget plan)

Budget execution system controls can be set to prevent spending beyond the budget plan amount
or allow spending over the budget plan amount at any level of the budget plan. Spending beyond
the apportionment and appropriation levels (legal levels) are prohibited. Decisions on control
settings that permit or prevent spending beyond other budget plan levels are made by the
customer agency. System controls are applied at the fund level after passage of appropriation
legislation and a high-level budget is loaded. Upon receipt and input of a detailed financial plan,
controls will be established at the level dictated by the customer agency.

Budget execution settings are determined by the customer agency and input into Oracle by the
CSB. System settings are reviewed with the customer agency on an annual basis. Budget plans
are input into Oracle by ARC staff, based upon budget plans provided by customer agencies.

Document Numbering
All accounting entries recorded into Oracle require a transaction or document identification
number. System controls prohibit the use of duplicate document numbers on revenue and
expense accruals. ARC has developed and implemented a standard document-numbering scheme
to avoid duplicate document processing and to enable readers of ARC reports to better identify
and/or determine the nature of transactions processed by ARC. When an ARC user attempts to
enter a transaction identification number that already exists, Oracle issues an error message that
alerts the user of the duplication.

Customer Agency Control Considerations

Customer agencies should establish controls to:

•   Review open accrual reports for completeness, accuracy, and validity.
•   Approve and send revenue and expense accruals to ARC in a timely manner.
•   Communicate customer agency required levels of budget and spending controls to ARC.

Tests of Operating Effectiveness and Results of Testing

•   Inspected written procedures for the processing of accruals and observed ARC staff
    processing accruals, and noted that the processing was in accordance with the procedures.
•   For a selection of accruals, inspected documentation of Customer Agency authorization and
    supervisory accountant review and determined that the accruals were authorized and reveiwed
    appropriately.

                                              45        Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
•   For a selection of months, inspected non-invoice batch payroll leave accruals and determined
    that the files were sent to ARC for processing and posting of summary payroll data to the core
    accounting system.
•   For a selection of months, inspected non-invoice non-batch leave accrual and determined that
    a supervisory accountant reviewed the manually calculated leave accruals to ensure they were
    properly calculated and input into Oracle.
•   For a selection of months, inspected TIER Submission Checklists for evidence of ARC
    supervisory review of TIER data and timeliness of submission and determined that
    submissions had been reviewed.
•   For a selection of months, inspected scorecard documentation and determined that the
    scorecards were maintained for supervisory review if neccesary.
•   For a selection of months, inspected reconciliation of revenue and expense accrual balances in
    the general ledger to the sub ledger detail and determined that reconciliations were performed
    and if any exceptions identified they were resolved.
•   For a selection of customer agencies inspected evidence and determined that for the year they
    specified their budget controls, they were input by CSB staff, and then reviewed by a
    supervisor for completeness and accuracy.
•   Observed an ARC staff member attempt to enter a transaction into Oracle with a document
    number that had already been entered into Oracle noted that Oracle automatically rejected the
    entry of a duplicate document number.


No exceptions noted.




                                              46       Control Objectives, Related Controls, and
                                                                Tests of Operating Effectiveness
Control Objective 9 – Government-Wide Reporting

Controls provide reasonable assurance that Government-wide reporting is performed in
accordance with ARC policies and procedures.

Description of Controls

ARC has documented procedures for staff to follow for the preparation of government-wide
reports.

FACTS I & II
ARC policies require the submission of FACTS I and FACTS II reports based on FMS’s criteria
for these applications. All reports must pass all FACTS edit checks. For non-Treasury customer
agencies, except the Department of Homeland Security, supervisory accountants review all
submissions prepared by accountants and review all data to ensure all reporting deadlines are met.
All fourth quarter FACTS II submissions require certification by an ARC supervisor or manager,
or other designated customer agency representative.

TIER
Treasury reporting entities are required to submit financial accounting and budgetary data each
month to TIER,Treasury’s data warehouse within Treasury’s submission timeline which is
generally the third business day of the subsequent month. The Department of Homeland Security
reporting entities are required to submit financial accounting and budgetary data each month to
TIER, Homeland Security’s data warehouse, within Homeland Security’s submission timeline
which is generally the fifth business day of the subsequent month. To meet this requirement,
ARC performs the Oracle month-end close processes on the second business day after the end of
the month. Supervisory accountants validate the quality of TIER data to ensure reporting
deadlines are met by reviewing an accountant-prepared TIER Submission Checklist. The TIER
Submission Checklist consists of internally and Treasury department defined data quality
standards. In order to monitor the quality of the data submitted, supervisory accountants and
managers review, as needed, Treasury’s monthly data quality scorecard.

EFT and Prompt Payment
ARC follows the Treasury guidelines for the EFT and Prompt Payment reports for its customers.
ARC accountants or lead accounting technicians prepare these reports on a monthly basis.
Supervisory accountants review these reports before submission. Treasury also requires that a
customer agency representative sign the Prompt Payment reports.

Financial Statements
ARC accountants prepare a Balance Sheet, Statement of Net Cost and Statement of Budgetary
Resources for all customer agencies that are covered by the Chief Financial Officer Act and the
Accountability of Tax Dollars Act of 2002. The statements are to be submitted each quarter to
the Director of the OMB and the Congress. Additionally, ARC accountants prepare the Statement
of Changes in Net Position and Statement of Custodial Activity (when applicable) for all customer
agencies. ARC accountants compare TFM financial statement crosswalks to ARC’s internally
prepared financial statements to ensure compliance with the reporting requirements. ARC
investigates and resolves any differences between TFM financial statement crosswalks and
ARC’s internally prepared financial statements.




                                              47       Control Objectives, Related Controls, and
                                                                Tests of Operating Effectiveness
Financial Statement Review
For Department of Treasury and Department of Homeland Security customer agencies, quarterly
financial statements are produced by departmental systems using the data submitted in TIER.
Quarterly consolidated financial statements are submitted to the Director of OMB and the
Congress by the Department. ARC accountants compare the quarterly financial statements to
ARC’s internally prepared financial statements, for supervisory review, and resolves any
differences.

Financial Statement Variance Analysis
For both Department of Treasury and Department of Homeland Security customer agencies,
accountants prepare a quarterly financial statement variance analysis. Explanations for variances
that exceed Department materiality thresholds must be provided to the Department. The
Department submits a consolidated analysis to OMB. The bureau variance analysis is reviewed
by an ARC supervisory accountant prior to submission to the Department. The Homeland
Security bureau variance analysis is also certified by an ARC manager as part of the CFO
certification letter.

For non-Treasury and non-Homeland Security customer agencies, accountants prepare a quarterly
financial statement variance analysis for interim periods based on the guidance in OMB Circular
A-136. Explanations for variances that exceed the OMB Circular A-136 guidelines are provided
to OMB with the quarterly financial statement submission. The variance analysis is reviewed by
an ARC supervisory accountant prior to submission to OMB.

Receivables
ARC Accountants prepare and submit a quarterly Report on Receivables Due from the Public for
all customer agencies. The report is reviewed by an ARC supervisory accountant prior to
submission to Treasury.

Customer Agency Control Considerations

Customer agencies should establish controls to:

•   Review the financial reports prepared by ARC to ensure that all reports prepared for external
    use are complete, accurate, and submitted in a timely manner.
•   Provide certification of FACTS II to ARC prior to ARC’s FACTS II system certification.

Tests of Operating Effectiveness and Results of Testing


•   Inspected written procedures and determined that ARC had documented procedures for the
    preparation of government-wide reports.
•   For a selection of fourth quarter FACTS II submissions, inspected evidence of management
    review and determined that they were reviewed and certified.
•   For a selection of months, inspected TIER Submission Checklists for evidence of ARC
    supervisory review of TIER data and timeliness of submission and determined that
    submissions had been reviewed.
•   For a selection of months, inspected scorecard documentation and determined that the
    scorecards were maintained for supervisory review if neccesary.

                                             48        Control Objectives, Related Controls, and
                                                                Tests of Operating Effectiveness
•   For a selection of months, inspected EFT and Prompt Payment reports and determined that
    they were reviewed by a supervisory accountant before submission.
•   For a selection of months, inspected reconciliations of financial statements prepared by FARS
    to internally prepared financial statements and determined that reconciliations were reviewed
    and that any differences were resolved.
•   For a selection of months, inspected reconciliation of financial statements prepared by FARS
    to internally prepared financial statements and determined that reconciliations were
    performed, any exceptions were resolved and are reviewed by a supervisory accountant
    before submission.
•   For a selection of quarters, inspected the Report on Receivables Due from the Public
    reconciliations and determined that reconciliations were documented.
•   For a selection of quarters, inspected Reports on Receivables Due from the Public and
    determined that they were reviewed by an ARC supervisory accountant.


No exceptions noted.




                                              49       Control Objectives, Related Controls, and
                                                                Tests of Operating Effectiveness
Control Objective 10 – Administrative Spending

Controls provide reasonable assurance that administrative spending controls are reviewed,
reconciled, and documented in accordance with ARC policies and procedures.

Description of Controls

ARC has documented procedures related to administrative spending controls.

Budget Execution System Controls
Customer agencies can establish and monitor both legally established and internally developed
budget plans in Oracle to ensure obligations are authorized and recorded. Budget plans can be
established at the following levels of the accounting structure in Oracle:
    • Appropriation/Fund (Based upon the customer’s appropriation)
    • Apportionment (Based upon the apportionment schedule on the SF132)
    • Cost Center (Based upon the customer’s internal budget plan)
    • Reporting Category (Based upon the customer’s internal budget plan)
    • Project Code (Based upon the customer’s internal budget plan)
    • Budget Object Code (Based upon the customer’s internal budget plan)

Budget execution system controls can be set to prevent spending beyond the budget plan amount
or allow spending over the budget plan amount at any level of the budget plan. Spending beyond
the apportionment and appropriation levels (legal levels) are prohibited. Decisions on control
settings that permit or prevent spending beyond other budget plan levels are made by the
customer agency. System controls are applied at the fund level after passage of appropriation
legislation and a high-level budget is loaded. Upon receipt and input of a detailed financial plan,
controls will be established at the level dictated by the customer agency.

Budget execution settings are determined by the customer agency and input into Oracle by the
CSB. System settings are reviewed with the customer agency on an annual basis. Budget plans
are input into Oracle by ARC staff, based upon budget plans provided by customer agencies.

Reconciliation – Budgetary and Proprietary Account Relationships
ARC accountants prepare budgetary to proprietary account relationship reconciliations on a
monthly basis, for supervisory review, to ensure complete general ledger account posting for all
recorded transactions. An accounting technician or an accountant corrects invalid out-of-balance
relationships.

Reconciliations – Fund Balance With Treasury (Activity and Balances)
A Federal Agency’s FBWT assists the agency in monitoring use of budget authority. Treasury’s
FMS provides the following reports to inform agencies of their FBWT and to assist agencies in
reconciling their general ledger balances to FMS balances:
    • Statement of Differences (Disbursements/Deposits) provides the net difference between
        FMS’s control totals and the agency’s FMS 224 submission.
    • GWA Account Statement (Transactions) provides increases and decreases to balances,
        detailed at the submitting ALC levels.
    • GWA Account Statement (Account Summary) provides beginning balance, current
        month net activity and ending balance.




                                              50        Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
ARC accountants reduce the probability of month-end differences relating to disbursements by
comparing preliminary FMS 224 disbursement data to month-to-date data obtained from
CA$HLINK II, GWA TDO Payments, and IPAC systems. Any differences identified by the
accountant are corrected by an accounting technician or another accountant prior to the close of
the accounting period.

ARC accountants perform Statement of Differences reconciliations, for supervisory review, as
well as reconciliations of GWA Account Statement balances to general ledger FBWT balances.
If differences are identified during the reconciliations, ARC accountants determine the cause of
the difference and the action, if any, that is needed to resolve the discrepancy. If the difference
requires correction, an entry is posted in the accounting system by an accounting technician or
another accountant.

Customer Agency Control Considerations

Customer agencies should establish controls to:

•   Properly approve and accurately enter obligations into the procurement and travel systems in
    the proper period.
•   Approve and return relocation travel vouchers to RSB for processing in moveLINQ in a
    timely manner.
•   Send valid requests to record manual obligations to ARC in a timely manner.
•   Review open obligation reports for completeness, accuracy, and validity.
•   Restrict customer agency access to Oracle, Discoverer, PRISM, webTA, and GovTrip to
    authorized individuals.
•   Communicate customer agency required levels of budget and spending controls to ARC.

Tests of Operating Effectiveness and Results of Testing


•   Inspected the written procedures related to administrative spending, inspected reconciliations,
    and observed ARC staff process transactions and determined that processing was in
    accordance with the procedures.
•   For a selection of customer agencies inspected evidence and determined that for the year they
    specified their budget controls, were input into Oracle by CSB staff, and reviewed by a
    supervisor for completeness and accuracy.
•   For a selection of months, inspected budgetary to proprietary account relationship
    reconciliations and determined that the reconciliations were performed and that any
    exceptions were resolved.
•   For a selection of months for a selection of customer agencies inspected evidence and
    determined that the accountants perform reconciliations, of GWA Account Statement
    balances to general ledger FBWT balances and supervisory review was completed.


No exceptions noted.


                                               51       Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
Control Objective 11 – Budget

Controls provide reasonable assurance that budget entries are documented and processed in
accordance with ARC policies and procedures.

Description of Controls

ARC has documented procedures for staff to follow for the processing of budget entries.

Budget Documentation
For customer agency appropriations subject to annual enactment, ARC enters an appropriation
based on the amount approved in the annual appropriations process, as supported by the
automatic amount calculated during a continuing resolution (CR), the enacted appropriation
legislation, or Treasury documentation. ARC enters an apportionment in Oracle from the
customer agency's SF 132, Apportionment and Reapportionment Schedule. Upon receipt of the
customer agency's budget plan or reprogramming guidance, ARC allocates funding to the
customer agency's accounting values according to the detail provided by the customer.

For customer agency sources of funds that are not subject to the annual appropriations process,
such as reimbursable or revolving accounts, ARC enters an appropriation and apportionment
based on the customer agency's SF 132 and recorded reimbursable activity for those accounts
subject to the apportionment process. ARC allocates funding to the customer agency's
accounting values based on the customer agency's budget plan or recorded reimbursable activity.
For sources of funds not subject to both the annual appropriations process and the apportionment
process, ARC enters an appropriation and apportionment at the fund level and allocates funding
to the customer agency's accounting values based on the customer agency's budget plan, recorded
reimbursable activity, or reprogramming guidance.

Budget Execution System Controls
Customer agencies can establish and monitor both legally established and internally developed
budget plans in Oracle to ensure obligations are authorized and recorded. Budget plans can be
established at the following levels of the accounting structure in Oracle:

    •   Appropriation/Fund (Based upon the customer’s appropriation)
    •   Apportionment (Based upon the apportionment schedule on the SF132)
    •   Cost Center (Based upon the customer’s internal budget plan)
    •   Reporting Category (Based upon the customer’s internal budget plan)
    •   Project Code (Based upon the customer’s internal budget plan)
    •   Budget Object Code (Based upon the customer’s internal budget plan)

Budget execution system controls can be set to prevent spending beyond the budget plan amount
or allow spending over the budget plan amount at any level of the budget plan. Spending beyond
the apportionment and appropriation levels (legal levels) are prohibited. Decisions on control
settings that permit or prevent spending beyond other budget plan levels are made by the
customer agency. System controls are applied at the fund level after passage of appropriation
legislation and a high-level budget is loaded. Upon receipt and input of a detailed financial plan,
controls will be established at the level dictated by the customer agency.

Budget execution settings are determined by the customer agency and input into Oracle by the
Business Technology Division’s Customer Service Branch (CSB). System settings are reviewed


                                              52        Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
with the customer agency on an annual basis. Budget plans are input into Oracle by ARC staff,
based upon budget plans provided by customer agencies.

Reconciliation – Budgetary and Proprietary Account Relationships
ARC accountants prepare budgetary to proprietary account relationship reconciliations on a
monthly basis, for supervisory review, to ensure complete general ledger account posting for all
recorded transactions. An accounting technician or an accountant corrects invalid out-of-balance
relationships.

Reconciliation – Fund Balance With Treasury
A Federal Agency’s FBWT assists the agency in monitoring budget authority. Treasury’s FMS
provides the following reports to inform agencies of their FBWT and to assist agencies in
reconciling their general ledger balances to FMS balances:

    •   GWA Account Statement (Transactions) provides increases and decreases to balances,
        detailed at the submitting ALC levels.
    •   GWA Account Statement (Account Summary) provides beginning balance, current
        month net activity and ending balance.

ARC accountants perform reconciliations, for supervisory review, of GWA Account Statement
balances to general ledger FBWT balances.            If differences are identified during the
reconciliations, ARC accountants determine the cause of the difference and the action, if any, that
is needed to resolve the discrepancy. If the difference requires correction, an entry is posted in
the accounting system by an accounting technician, another accountant or a budget analyst.

Document Numbering
All accounting entries recorded into Oracle require a transaction or document identification
number. System controls prohibit the use of duplicate document numbers on budget documents.
ARC has developed and implemented a standard document-numbering scheme to avoid duplicate
document processing and to enable readers of ARC reports to better identify and/or determine the
nature of transactions processed by ARC. When an ARC user attempts to enter a transaction
identification number that already exists, Oracle issues an error message that alerts the user of the
duplication.

Customer Agency Control Considerations

Customer agencies should establish controls to:

•   Review the financial reports provided by ARC to ensure that budget entries are complete and
    accurate.
•   Send approved budget plans to ARC in a timely manner.
•   Communicate customer agency required levels of budget and spending controls to ARC.
•   Communicate OMB apportionment status to ARC.
•   Monitor usage of budget authority during periods of operation under a Continuing Resolution
    to ensure that OMB directed apportionment limits are not exceeded.




                                               53        Control Objectives, Related Controls, and
                                                                  Tests of Operating Effectiveness
Tests of Operating Effectiveness and Results of Testing

•   Inspected written procedures for budget entries and determined that they were consistent with
    the control description.
•   For a selection of customer agencies, inspected evidence and determined that for the year they
    specified their budget controls, they were input by CSB staff, and then reviewed by a
    supervisor for completeness and accuracy.
•   For a selection of months, inspected monthly general ledger account reconciliations and
    determined that reconciliations were performed, any exceptions were resolved and the
    recompilation was reviewed by a supervisor.
•   For a selection of months for a selection of customer agencies, inspected evidence and
    determined that the accountants performed reconciliations, of GWA Account Statement
    balances to general ledger FBWT balances and supervisory review was completed.
•   Observed an ARC staff member attempt to enter a transaction into Oracle with a document
    number that had already been entered into Oracle and noted that Oracle automatically rejected
    the entry of a duplicate document number.


No exceptions noted.




                                              54       Control Objectives, Related Controls, and
                                                                Tests of Operating Effectiveness
Control Objective 12 – Manual Journal Entries

Controls provide reasonable assurance that manual journal entries are authorized.

Description of Controls

ARC has documented procedures for staff to follow for the processing of manual journal entries.

Journal Entry Approval
A user’s profile in Oracle determines whether or not the user can prepare and/or approve a
manual journal entry. Oracle system controls require that all manual journal entries be routed to
an approver. Once a user has entered a journal entry, Oracle automatically routes the journal
entry to their supervisor’s approval queue.

Document Numbering
Oracle assigns all manual journal entries a specific journal category and journal source and ARC
follows a standard document numbering scheme. Hardcopy documentation supporting the
journal entry accompanies each request for approval. The approver compares the hardcopy
documentation to Oracle and approves the journal entry.

Customer Agency Control Considerations

•   Send valid and approved requests to record manual journal entries to ARC in a timely
    manner.
•   Maintain and communicate to ARC, a list of individuals authorized to submit manual journal
    entries that are initiated by the customer agency.

Tests of Operating Effectiveness and Results of Testing


•   Inspected written procedures for the processing of manual journal entries and determined that
    procedures were documented.
•   Inspected the list of Oracle users with the ability to create manual journal entries and
    determined that they were assigned a supervisor in Oracle and were subject to the automated
    approval work flow.
•   Inspected the list of Oracle users with the ability to approve manual journal entries and the list
    of users with the ability to enter manual journal entries and determined that users without a
    specified supervisor did not have the ability to enter a manual journal entry.
•   For a selection of journal entries, inspected hardcopy supporting documentation and related
    Oracle journal entries and determined that the manual journal entries had proper hardcopy
    documentation and were authorized.


No exceptions noted.




                                                55        Control Objectives, Related Controls, and
                                                                   Tests of Operating Effectiveness
Control Objective 13 - Federal Investments

Controls provide reasonable assurance that Federal investments are authorized, reviewed,
processed timely, reconciled, and properly documented in accordance with ARC policies and
procedures.

Description of Controls

ARC accountants process purchases of Federal investments in accordance with customer agency
instruction. Instructions include the type and amount of securities to be purchased or the amount
of residual cash to be retained. An independent accountant reviews investment purchases.

All investment activity is recorded in general ledger through a daily interface between the Federal
Investment System (FedInvest) and Oracle. Accountants reconcile investment general ledger
accounts to the FedInvest application on a monthly basis to ensure all investment activity has
been properly recorded. A supervisor reviews investment account reconciliations.

Tests of Operating Effectiveness and Results of Testing

•   For a selection of customer agencies, inspected investment instructions and determined that
    they were provided to ARC and defined the investment objectives for the agencies.
•   For a selection of investment purchases, inspected evidence and determined that an
    independent accountant reviewed the purchases.
•   For a selection of months for a selection of customer agencies, inspected evidence and
    determined that the accountants reconciled investment general ledger accounts to the
    FedInvest application in a timely manner.


No exceptions noted.




                                              56        Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
Control Objective 14 – Suppliers and Banks Record Changes

Controls provide reasonable assurance that changes made to Suppliers and Banks records require
appropriate system access and the changes are reviewed, approved, and documented in
accordance with ARC policies and procedures.

Description of Controls

ARC has documented procedures related to Suppliers and Banks record changes for staff to
follow.

Segregation of Duties – Changes to Suppliers and Banks Records
User profiles set by Oracle system administrators, as authorized by the user’s supervisor or
manager, ensure that only authorized Central Accounting Branch (CAB) employees are able to
make changes to Suppliers and Banks records. Authorized CAB employees who have Suppliers
and Banks record change privileges do not have authorization to approve vendor payments in the
accounting systems allowing for proper segregation of duties.

Changes to Suppliers and Banks records that include taxpayer identification number, address, or
bank routing/account number require:

•   A source document (Central Contractor Registration (CCR) database or a document supplied
    by the vendor or customer, when CCR is not applicable. – i.e., grants and loans, payroll
    database, and/or e-mail, etc.), and
•   Independent review.

Review – Changes to Suppliers and Banks Records
CAB employees review and process changes to Suppliers and Banks records and maintain the
supporting source documentation as described above.

A reviewing CAB employee compares changes to Suppliers and Banks records from the Oracle
system to the change request documents and initials the audit report indicating review. The
reviewing employee does not have access to make changes to Suppliers and Banks records in
Oracle. Therefore, if errors were made, the reviewing CAB employee would provide a copy of
the source document to an authorized employee for correction and subsequent review.

Tests of Operating Effectiveness and Results of Testing

•   Inspected written procedures and determined that ARC had documented procedures for
    Suppliers and Banks record changes.
•   Inspected a list of users with access to update, modify, or delete Suppliers and Banks records
    and determined that users had the appropriate privileges.
•   Inspected a list of users with access to process vendor payments and determined that users
    had the appropriate privileges.
•   For a selection of changes to Suppliers and Banks records, inspected the reviewed report
    signed by the reviewing employee and determined that the Suppliers and Banks record
    changes were reviewed and approved.
No exceptions noted.

                                              57        Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
PROCUREMENT PROCESSING CONTROLS

Control Objective 15 – Acquisitions and Contracts

Controls provide reasonable assurance that acquisitions are compliant with Federal laws,
regulations and policies.

Description of Controls

All simplified acquisitions, commercial item contracts and Uniform Contract Format contract
files contain a checklist of file contents, which is completed by a Contract Specialist. A
standardized contract file format is also maintained. The checklist and file contents are reviewed
by a warranted Contracting Officer, as evidenced by their signature on the award document, to
ensure adequacy of documentation and compliance with laws, regulations and policies. Contract
officers are warranted by Treasury for certain dollar limits based on experience and training.

Tests of Operating Effectiveness and Results of Testing


•   Inspected a selection of simplified acquisitions, commercial item contracts, and Uniform
    Contracts and determined that a standard format was used and each included a checklist, with
    the following exception noted:
    •   Two of the 25 simplified acquisition files inspected did not include the checklist as
        defined in the control description.
•   For a selection of simplified acquisitions, commercial item contracts, and Uniform Contracts
    inspected the checklists and determined that the documentation was reviewed by a Warranted
    Contracting Officer.
•   Inspected the contract officer’s authorization levels and determined that Warranted
    Contracting Officers had specified dollar limits.

No exceptions noted, except as described above.




                                               58       Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
Control Objective 16 – Sufficiently Funded Requisitions

Controls provide reasonable assurance that contract obligations are supported by approved
requisitions.

Description of Controls

A Contract Specialist or Contracting officer ensures that each acquisition file is supported by a
sufficiently funded requisition. Requisitions are approved by program officials through the
PRISM system. Approval specifies that funds are available at the time of the requisition and are
then reserved for this purchase through a commitment. Approving officials are granted dollar
threshold approval rights by the customer agency. These thresholds are maintained in the PRISM
system.

Tests of Operating Effectiveness and Results of Testing

•   Inspected a selection of acquisitions and evidence from PRISM and determined that the
    requisitions were approved by program officials through the PRISM system.
•   Inspected the approval limits in the PRISM system and determined that the use of the
    approval limits in PRISM were configured properly.


No exceptions noted.




                                             59        Control Objectives, Related Controls, and
                                                                Tests of Operating Effectiveness
GENERAL COMPUTER CONTROLS

Control Objective 17 – System Access

Controls provide reasonable assurance that systems are protected from unauthorized access in
accordance with ARC policies and procedures.

Description of Controls

ARC follows BPD policies and procedures that were developed, documented, disseminated, and
that are periodically reviewed and updated to facilitate the implementation of logical access
controls. Additionally, procedures specific to Oracle, PRISM, webTA, GovTrip, and moveLINQ
have been documented. The logical access controls are based on Treasury and BPD policies and
standards (Treasury Information Technology Security Program TDP-85-01 Volume I), which, in
turn, are based on the applicable Federal laws and regulations. These controls are the system-
based mechanisms that are used to specify which individuals and/or processes are to have access
to a specific system resource and the type of access that is to be permitted. These controls limit
user access to information and restrict their system access to their designated level.

Oracle
Access to Oracle is restricted to users with a valid logon ID and password. Oracle
logons/sessions are encrypted to protect the information, making it unintelligible to all but the
intended users. Sessions are protected using 128-bit Secure Sockets Layer (SSL) encryption.
Prospective Oracle users must complete, sign and submit an approved Administrative Resource
Center System Access Form for End User Applications to request access to Oracle. The end
user’s signature indicates that they are familiar with the Privacy Act information and security
requirements and will comply with computer security requirements established by BPD and
ARC. The form defines the user’s access specifications, which will allow the user to perform
his/her duties in Oracle. Changes to existing user profiles require an e-mail to be sent to the
Oracle Support Team mailbox by an authorized individual requesting the change, and defining
what access should be added/deleted/changed. In order to remove a user’s access, customer
agencies submit a request for account termination. At that time, the Oracle user account is end-
dated in the system to remove their access. Additionally, each day the Oracle Support Team
generates and reviews a list of Oracle user accounts that have been inactive for 80 days. An e-
mail is sent to the user warning them that their account will be end-dated if they maintain an
inactive status for 90 days. After 90 days of inactivity, the user’s account will be end-dated.
Annually, the ARC sends out a list of system users to each customer agency for review. The
Oracle Support Team updates the permissions for users based on the responses received from the
customer agencies.

Oracle uses a multi-org functionality to strengthen security within the application. Each customer
agency is setup as an operating unit in Oracle. When a new responsibility is created by the
system administrators, it is mapped to a specific operating unit by a system profile option. The
multi-org functionality helps ensure that a user assigned to a responsibility (which in turn is
mapped to an operating unit) can only see or enter data for that customer (or operating unit).
Oracle also provides a value set security feature, assigned to a responsibility, which further
controls new data entry in the operating unit by limiting the list of values (LOV) for the
accounting flexfield to those values specific to the customer (or operating unit).

Only CSB and QCB employees along with the SYSADMIN account controlled by Information
Technology Support Branch are assigned the System Administrator responsibility in the Oracle

                                              60       Control Objectives, Related Controls, and
                                                                Tests of Operating Effectiveness
application. The employees with the System Administrator responsibility have limited access to
perform operational functions in Oracle, specifically limited to the month-end closing, during
customer conversions (as directed by the functional teams) or emergency situations that can be
approved by a supervisor or manager after the fact. Additionally, the individuals with Oracle
System Administrator privileges perform multiple functions, including that of the Oracle Support
team members. As a result, these individuals periodically require temporary access privileges of
a functional user in order to address user inquiries. An edit check prevents an Oracle System
Administrator from adding or removing any responsibilities from their own user ID.

The CSB/QCB managers can be assigned the System Administrator responsibility in situations
where the manager deems the access is required. This responsibility is granted on a temporary
basis with the proper request and approval and will be end-dated once the access is no longer
necessary. Project and Technical Services Branch (PTSB) can be assigned System Administrator
responsibility when management deems the access is required. This responsibility is granted on a
temporary basis with the proper request and approval and will be end-dated once the access is no
longer needed.

Administrative access to the underlying Oracle servers and databases is limited to server and
database administrators within the OIT and specific BTD employees.

User Identifications (IDs) are assigned to BPD employees consistent with their network logon ID.
User IDs for customer agency staff are assigned by an ARC system administrator. A temporary
password is assigned to all users by calling the Oracle Support Team. Oracle Support Team
personnel are responsible for verifying the caller’s identity. Once the user logs onto the
accounting system, they must establish their own unique password. An Oracle user’s password
must meet unique password configuration, password complexity and password expiration criteria
to ensure strong password security.

Oracle access attempt logs are reviewed daily by the PRISM Support Team to identify if users
attempted to unsuccessfully access the system five or more times in the day. When five or more
unsuccessful access attempts were made, an e-mail is sent to the user indicating that the access
attempts were noted and requesting that the user notify ARC if the attempts were not made by the
user.

PRISM
Access to PRISM is restricted to users with a valid logon ID and password. PRISM
logons/sessions are encrypted to protect the information, making it unintelligible to all but the
intended users. Sessions are protected using 128-bit SSL encryption. Prospective PRISM users
must complete, sign, and submit an approved Administrative Resource Center System Access
Form for End User Applications to request access to PRISM. The end user’s signature indicates
that they are familiar with the Privacy Act information and security requirements and will comply
with computer security requirements established by BPD and ARC. The form defines the user’s
access specifications, which will allow the user to perform his/her duties in PRISM. Changes to
existing user profiles require an e-mail to be sent to the PRISM Support Team mailbox by an
authorized individual at the customer agency, requesting the change, and defining what access
should be added/deleted/changed. In order to remove a user’s access, customer agencies submit a
request for account termination. At that time, the PRISM user is end-dated in the system to
remove their access. Additionally, each day the Oracle Support Team generates and reviews a
list of PRISM user accounts that have been inactive for 80 days. An e-mail is sent to the user
warning them that their account will be end-dated if they maintain an inactive status for 90 days.
After 90 days of inactivity, the user’s account will be end-dated. Annually, the ARC sends out a

                                              61       Control Objectives, Related Controls, and
                                                                Tests of Operating Effectiveness
list of users to each customer agency for review. Included for review are requisitioner and buyer
approval limits by user. The PRISM Support Team updates the access according to the responses
received from the customer agencies.

User access within PRISM is further limited by only allowing users to approve the addition or
modification of records to the operating units they have been assigned in Oracle. PRISM utilizes
the existing security features and functionality of Oracle. For example, new users are setup in
Oracle and assigned appropriate PRISM responsibilities. Within Oracle, the responsibilities are
mapped to PRISM security groups. The user and security groups then flow to PRISM. Within
the PRISM application, users are assigned additional responsibilities as authorized on the access
form.

Updates to a user’s PRISM responsibilities are audited by independent employees within CSB.
The changes to functional access privileges are reviewed and compared to the changes to the
BTD’s Team Responsibilities matrix to determine whether or not the access privileges are
appropriate. Follow up is performed to validate the addition of any privileges that are not on the
BTD’s Team Responsibilities matrix.

The System Administrator responsibility in PRISM is limited to certain employees requiring the
access for the performance of job duties. Administrative access to the underlying PRISM servers
and databases is limited to server and database administrators within the OIT and specific BTD
employees

User IDs are assigned to BPD employees consistent with their network logon ID. User IDs for
customer agency staff who utilize PRISM are assigned by an ARC system administrator. A
temporary password is assigned to all users by calling the PRISM Support Team. PRISM
Support Team personnel are responsible for verifying the caller’s identity prior to establishing the
user’s password. Once the user logs onto the system, they must establish their own unique
password. A user’s password must meet unique password configuration, password complexity
and password expiration criteria to ensure strong password security.

PRISM access attempt logs are reviewed daily by the Oracle Support Team to identify if users
attempted to unsuccessfully access the system five or more times in the day. When five or more
unsuccessful access attempts were made, an e-mail is sent to the user indicating that the access
attempts were noted and requesting that the user notify ARC if the attempts were not made by the
user.

webTA 1
Access to webTA is restricted to users with a valid logon ID and password. Access to webTA is
provided using 128-bit SSL encryption. All personnel require access to webTA in order to
complete time and attendance submission. Users granted standard employee access privileges are
not required to submit an access form. However, users that require elevated access privileges
(e.g., timekeeper, supervisor) are added to the webTA system following receipt of a supervisor-
approved Administrative Resource Center System Access Form for End User Applications. The
end user’s signature indicates they are familiar with the Privacy Act information and security
requirements and will comply with computer security rules. The form defines the user’s access
specifications, which will allow the user to perform his/her duties in webTA. Changes to existing
user profiles require a new access form to be submitted by the customer agency. Upon receipt of
an Administrative Resource Center System Access Form for End User Applications requesting the

1
    The scope of the description of webTA controls applies only to full service webTA customers.

                                                    62        Control Objectives, Related Controls, and
                                                                       Tests of Operating Effectiveness
deletion of a webTA user or upon receipt of a timesheet coded as “Final,” an HR Administrator in
PLSB removes the assigned responsibilities. Annually, an HR Administrator sends out a list of
timekeepers and supervisors to each customer agency for the agency to use in performing a
periodic review of access. The list is limited to those timekeepers and supervisors who are not
currently responsible for validating or approving time for an active employee at the customer
agency. The review ensures that these employees who do not currently validate or approve time
on a regular basis still require their role as a timekeeper or supervisor.

User access within webTA is further limited by the role the user is assigned in the system (i.e.,
Employee, Timekeeper, Supervisor, etc.). The System Administrator and HR Administrator roles
in webTA are limited to certain employees, ensuring no one serves in both administrator roles.
Periodically, there is a need for the System Administrator to research a problem in a production
instance using an HR Role. When such an event arises, the System Administrator can be
temporarily granted HR specific roles with supervisor approval. Administrative access to the
underlying webTA servers and databases is limited to server and database administrators within
the OIT.

An HR Administrator assigns user IDs to BPD employees consistent with their network logon ID.
User IDs for customer agency staff who utilize webTA as timekeepers or supervisors are also
assigned by an HR Administrator. An HR Administrator also assigns a temporary password to
users by an e-mail. Once the user logs onto the system, they must establish their own unique
password. A user’s password must meet unique password configuration, password complexity
and password expiration criteria to ensure strong password security.

GovTrip
Access to GovTrip is restricted to users with a valid logon ID and password. All users must
complete the self-registration process. An account token will be forwarded to the user by the TSD
helpdesk after the self-registration information is verified for the user to activate their account.
After registration is completed, a Travel Services Division (TSD) Administrator verifies the
request of the user to grant access to GovTrip. Budget Reviewers and Approving Officials must
complete, sign, and submit an approved Administrative Resource Center Online Applications
Access Request or have an approving official or agency travel contact authorize access via e-mail.
The end user’s signature indicates they are familiar with the Privacy Act information, security
requirements, and will comply with computer security requirements established by BPD and
ARC. The form defines the user’s access specifications, which will allow the user to perform
his/her duties in GovTrip. Changes to a user’s identification (i.e., name change) or to the user’s
role in GovTrip require an Administrative Resource Center Online Applications Access Request
to be resubmitted or an e-mail from the user copying his/her approving official or agency travel
contact. Upon receipt of an Exit Clearance form or e-mail request, GovTrip access permissions
are set to indicate that the user has terminated, by changing the user’s organization level to a
suspense level. Additionally, the user ID is reset so that the user will no longer have access to
utilize the account. On an annual basis GovTrip user accounts are reviewed by customer agency
Travel Contacts. TSD staff creates reports of GovTrip users and distribute the reports to
customer agency Travel for review and verification of the accounts.

GovTrip has user access levels that separate permissions from highest to lowest into these
categories:
    • System administrators (NGMS only)
    • Application administrators; Designated TDSB staff
    • Application administrators; Customer Service Help Desk Tier 2, Designated TDSB staff


                                               63       Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
    •   Customer Service Help Desk Tier 1, Designated TDSB Staff
    •   Approving Officials and Budget Reviewers
    •   User; Traveler and Document Preparer
    •   Terminated Users; Invitational Travelers

Access privileges are granted in accordance with the concept of least privilege required.

Users must establish their own unique GovTrip password. A user’s password must meet unique
password configuration, password complexity and password expiration criteria to ensure strong
password security.

moveLINQ
Access to moveLINQ is restricted to authorized TSD users with a valid logon ID and password.
The process for requesting, establishing, issuing, and closing user accounts is controlled through
the use of the moveLINQ Online Application Access Request Form which requires supervisor
approval. The form defines the user’s access specifications, which will allow the user to perform
his/her duties in moveLINQ. Changes to a user’s identification (i.e., name change) or to the
user’s role in moveLINQ also require a moveLINQ Online Application Access Request Form or
e-mail from the user’s supervisor or manager. The user access list is reviewed by management
every time a change is made or six months from the last review, whichever is longer.

User IDs are assigned to authorized TSD employees consistent with their network logon ID. A
temporary password is assigned to moveLINQ users in person or by phone. Once the user logs
onto moveLINQ, they must establish their own unique password which is encrypted. A user’s
password must meet unique password configuration, password complexity and password
expiration criteria to ensure strong password security.

moveLINQ has user access roles that separate permissions from highest to lowest into these
categories:
    • Administrator
    • SAR (Non-Admin)
    • AUTH TSD Management
    • Relocation Coordinator Level 1
    • Relocation Coordinator Level 2
    • Tech – RITA Only
    • Special OA
    • Tech
    • Viewer

Access privileges are granted in accordance with the concept of least privilege required.

See Control Objective 19 for further discussion of the physical access control process.


Customer Agency Control Considerations

Customer agencies should establish controls to:
•   Review and approve listing of users with current Oracle, PRISM, webTA, and GovTrip
    access to ensure appropriateness.


                                              64        Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
•   Ensure exiting employee timecards are coded “Final” as this will help ensure that HR staff
    deactivate the employee’s webTA access.

Tests of Operating Effectiveness and Results of Testing

•   Inspected the Treasury Information Technology Security Program TDP-85-01 Volumes I and
    II and determined that security policies and procedures were documented.
•   Inspected Oracle user account management procedures and password procedures and
    determined that the security policies and procedures were documented for Oracle.
•   Inspected PRISM user account management procedures and password procedures and
    determined that security policies and procedures were documented for PRISM.
•   Inspected webTA user account management procedures and password procedures and
    determined that security policies and procedures were documented for webTA.
•   Inspected GovTrip user account management procedures and password procedures and
    determined that security policies and procedures were documented for GovTrip.
•   Inspected moveLINQ user account management procedures and password procedures and
    determined that security policies and procedures were documented for moveLINQ.
•   Inspected screen prints of a logon session and determined that Oracle users required a valid
    login ID and password and that logins/sessions were encrypted with 128-bit SSL encryption.
•   For a selection of new Oracle users, inspected user access request forms and determined that
    the forms were completed, access authorized, and contained employees signature to denote
    that they understood the privacy act requirements.
•   For a selection of changes to Oracle user profiles, inspected authorizing documentation and
    determined that updates to access rights were authorized.
•   Inspected a selection of requests for termination of customer agencies employees’ Oracle
    access and evidence of when the account was end dated in the Oracle system and determined
    that requests for termination of access from customer agencies was competed in a timely
    manner.
•   From the selection of inactive Oracle user account reviews, inspected evidence and
    determined that the accounts inactive for 80 or more days were end dated in the system.
•   For a selection of customer agencies, inspected evidence of the annual Oracle user access
    review and determined that the annual reviews were performed.
•   Inspected the list user accounts and access in Oracle and determined that each user’s access
    was restricted to distinct operating units or customer agencies.
•   Inspected the user roles assigned to the Oracle System Administrators and compared them to
    the BTD Allowable Responsibilities Table, and determined that the functional user
    permissions were restricted commensurate with job responsibilities.
•   Observed and inspected a screenshot of an Oracle System Administrator attempt to add
    responsibilities to their user ID, and noted that System Administrators could not add
    responsibilities to their user IDs.




                                              65        Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
•   For a selection of occurrences, inspected documentation authorizing the use of temporary
    Oracle Administrator Access and determined that the access was documented, and approved
    and revoked when no longer needed.
•   Inspected the access control lists for the Oracle database and the host server and determined
    that the function user permissions were restricted commensurate with job responsibilities.
•   Inspected the Oracle user list and determined that the accounts followed the naming
    convention.
•   Inquired of the Supervisory Financial Systems Analyst and was informed that passwords were
    distributed to new external users via telephone after confirmation of user identity.
•   Inquired of the Supervisory Financial Systems Analyst and was informed that upon initial
    login new accounts must establish a new password.
•   Inspected Oracle profile options and determined that Oracle was configured to disconnect
    sessions if they remained inactive for 30 minutes.
•   Inspected Oracle profile options and determined that failed logins, password complexity,
    generation, and length requirements were configured in accordance with ARC password
    standards.
•   For a selection of Oracle System Administrators and users, observed the password lifespan
    days established for the individual users and noted that they were configured in accordance
    with ARC password standards.
•   For a selection of dates, inspected Oracle violation logs and evidence of review and
    determined that violation logs were reviewed.
•   Inspected a screen print of a logon session and determined that user ID and password were
    required and that PRISM logins/sessions were encrypted with 128-bit SSL encryption.
•   For a selection of new PRISM users, inspected user access request forms and determined that
    the forms were completed and access was authorized.
•   For a selection of changes to PRISM user accounts, inspected authorizing documentation and
    determined that updates to the accounts were authorized.
•   Inspected a list of separated employees and a list of PRISM users and determined that
    separated employees did not retain access to the PRISM.
•   For a selection of days, inspected the PRISM inactive reviews and determined that the
    reviews were performed on a daily basis.
•   Inspected evidence of distribution of PRISM user lists for review and determined that user
    account lists were distributed on an annual basis for review.
•   Observed and inspected a screenshot of the production PRISM system for a user and noted
    that system was configured as defined in the control and in the New User Setup document.
•   Inspected a selection of modified PRISM access reviews and determined that they were
    reviewed by an independent reviewer.
•   Inspected the access control lists for the PRISM backend database and the host server and
    determined that the System Administrator and DBA privileges were commensurate with job
    responsibilities.



                                               66       Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
•   Inspected the PRISM user list and determined that accounts appear to the naming convention,
    using first initial and second initial if necessary and last name.
•   Observed the PRISM Support Team member creating a new account in the PRISM system
    and noted that upon first login the user was immediately directed to reset their password.
•   Inspected PRISM password settings and determined that failed logins, password complexity,
    aging, generation, and length requirements were configured in accordance with ARC
    password standards.
•   Inspected PRISM configuration settings and determined that the PRISM sessions were
    configured to time-out if they remained inactive for 30 minutes.
•   For a selection of dates, inspected PRISM violation logs and evidence of review and
    determined that violations logs were reviewed.
•   Observed a logon session and noted that the webTA logins/sessions required user name and
    password.
•   Observed a user log into webTA and noted that connections to webTA were encrypted
    utilizing 128-bit SSL encryption.
•   For a selection of new webTA users with elevated privileges, inspected user access request
    forms and determined that the forms were completed and access was authorized.
•   For a selection of changes to webTA user profiles, inspected authorizing documentation and
    determined that updates to the accounts were authorized.
•   Inspected a list of separated employees and a list of webTA users and determined that the
    separated employees did not retain access to the webTA application, server, or database.
•   For a selection of customer agencies, inspected evidence of distribution of a list of webTA
    supervisors and timekeepers for annual user account review by the customer agency and
    determined that annual reviews of access were completed.
•   Inquired of ARC management and was informed the privileges provided within webTA were
    provided based on the concept of least privilege.
•   Inspected the BPD user privileges with webTA and determined that users were assigned in a
    role based security configuration.
•   Inspected the BPD user privileges within webTA and determined that users assigned HR
    Administrators did not have Administrator access.
•   Inspected the webTA user privileges for a selection of customer agencies and determined that
    users were assigned in a role based security configuration, and if users assigned HR
    Administrator did not have Administrator Access.
•   Inspected the webTA user privileges for a selection of customer agencies and the BPD group
    and the BTD phone list and determined that users with Administrator access were restricted to
    employees in BTD group.
•   Observed webTA for an initial login and noted that the user was required to create a new
    password at first login.
•   Inspected webTA password settings and determined that failed logins, password complexity,
    aging, generation, and length requirements were configured in accordance with ARC
    password standards.


                                              67        Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
•   Inspected webTA configuration settings and determined that webTA sessions were
    configured to time-out if they remained inactive for 10 minutes.
•   Observed a user access the GovTrip system and noted that a user needed to be authenticated
    prior to accessing the system.
•   For a selection of new GovTrip users, inspected user access request forms or e-mails and
    determined that the forms or e-mails were completed and access was authorized.
•   For a selection of changes to GovTrip users, inspected authorizing documentation and
    determined that access changes were documented and access was authorized.
•   Inspected a list of separated employees and a list of GovTrip users and determined that the
    separated employees did not retain access to the GovTrip application.
•   Inspected evidence of distribution of GovTrip user lists for review and determined that user
    account lists were distributed on an annual basis for review.
•   Inquired of ARC management and was informed that the privileges provided within GovTrip
    were provided based on the concept of least privilege.
•   Inspected the user privileges with GovTrip and determined that users were assigned in a role
    based security configuration from highest to lowest.
•   Observed a GovTrip user attempt to change their password to an invalid setting and
    determined that the system automatically prevented the use of password that did not confirm
    to the requirements, with the following exception noted:
    •   The password settings in GovTrip did not enforce one aspect of the password complexity
        requirements.
        Remediation efforts were performed by BPD. A patch for the enforcement of password
        configuration settings was placed into production on June 20, 2009. Observed an ARC
        employee on June 22, 2009, attempt to change a password to an invalid setting and
        determined that GovTrip automatically prevented the use of invalid password settings
        that did not conform to the requirements.
•   Observed a moveLINQ user login to the web based system and noted that they were required
    to enter a user ID and password.
•   Inspected a selection of reviewed moveLINQ user access lists and determined that the review
    of access was performed.
•   Inspected documentation for a selection of added moveLINQ users and determined that the
    requests were documented and approved.
•   Inspected a selection of moveLINQ modification requests and determined that the requests
    were documented and approved.
•   Inspected a selection of moveLINQ termination requests and determined that the removal of
    access was documented and performed.
•   Inspected the list of ARC separations and the active list of movLINQ accounts and
    determined there were no accounts of terminated employees on the system.
•   Inspected the current moveLINQ user list and determined that accounts were assigned with a
    network IDs.
•   Observed and noted that a moveLINQ user must reset their passwords upon initial login.

                                              68        Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
•   Observed a moveLINQ user attempt to change their password to non-compliant passwords to
    test length and complexity requirements and noted that the system prevented the changes.
•   Observed a moveLINQ user enter the incorrect password 3 times and determined that the
    system locked the user account.
•   Inspected the user privileges with moveLINQ and determined that users were assigned in a
    role based security configuration from highest to lowest.

No exceptions noted, except as described above.




                                             69       Control Objectives, Related Controls, and
                                                               Tests of Operating Effectiveness
Control Objective 18 – System Changes

Controls provide reasonable assurance that system application changes are tested, approved, and
documented in accordance with ARC policies and procedures.

Description of Controls

ARC has documented procedures for testing, approving, and documenting changes. Prior to the
Oracle on Demand migrations, ARC System Administrators served as facilitators of the formal
change management process using iETSolutions Workcenter (iET), a COTS application,
maintained by BPD’s Office of Information Technology, that provides change management,
incident tracking, and service request logging capabilities. Beginning with the migration to
Oracle on Demand in April and May 2009, ARC System Administrators continue as facilitators
of the formal change management process via MetaLink, Oracle’s on Demand’s web based
service request system.

Additional information regarding the Oracle migration is contained in the Information and
Communication section of this report.

Oracle and PRISM
For Oracle and PRISM, ARC uses iET/Metalink to document key steps for each change:
including the initial request, approval, and implementation into production.

ARC processes standard software releases (i.e., patches) for both Oracle and PRISM.
Additionally, ARC processes customized application extension changes to Oracle. The ability to
process and apply Oracle and PRISM changes is restricted to the database administrators under
the coordination of OIT/Oracle on Demand.

ARC System Administrators, as designees of the system owner, serve as the primary initiators of
change requests. The following is indicated in the request: all the affected parties, a description
of the change, the applicable instance, and the requested date of the change. PTSB staff develops
customizations in separate development instances. QCB staff test changes by running test scripts
and analyzing the results. Upon successful completion of testing, QCB staff approves the change
request and forward it to the performer of the change, OIT/Oracle on Demand database
administrators. After the approved request has been completed, the performer updates the request
in iET/MetaLink accordingly, and the request is then closed.

For emergency changes to a production instance of Oracle or PRISM, ARC requires verbal
approval from a designated on-call manager and from the Information Technology Support
Branch Manager. ARC System Administrators document the emergency change in iET on the
next business day.

webTA
ARC has a webTA maintenance agreement in place with immixTechnology, a vendor for
Kronos’ webTA product.

For webTA, ARC applies standard software releases (i.e., patches) only. Unlike Oracle, webTA
does not have application extensions that are customizable by ARC.

When a new webTA release is received from Kronos (the developer of webTA), QCB staff test
the new release in a separate test instance by running test scripts and analyzing the results. Upon

                                              70        Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
successful completion of customer acceptance testing, the QCB staff forward a request for
applying the new webTA release to production to the appropriate parties for approval. The ability
to apply webTA releases is restricted to the database administrators under the coordination of
OIT. The new webTA release is not applied to production until it has been successfully tested
and approved.

GovTrip
GovTrip is hosted and maintained by NGMS at their facility. NGMS informs TSD of scheduled
updated system releases and the changes contained therein. System changes are also initiated by
TSD Analysts who make enhancement requests to NGMS for changes to be included by NGMS
in future scheduled release updates. TSD analysts test all GovTrip changes in a GovTrip
acceptance test environment. If any of the changes included in a scheduled GovTrip release
update fail TSD’s acceptance testing, NGMS may delay implementation of the release update.
TSD has documented procedures for testing GovTrip changes. Guidance is provided to customer
contacts on any changes.

moveLINQ
moveLINQ is hosted by OIT and maintained at BPD. mLINQS informs the RSB Manager and
moveLINQ System Administrators of scheduled updated system releases and the changes
contained therein. System changes are also initiated by moveLINQ System Administrators who
make enhancement requests to mLINQS for changes to be included by mLINQS in future
scheduled release updates. moveLINQ System Administrators test all moveLINQ changes in a
moveLINQ test environment. If any of the changes included in a scheduled moveLINQ release
update fail the System Administrators testing, RSB may delay implementation of the update until
the release passes the testing. RSB has documented procedures for testing and implementing
moveLINQ changes. RSB uses the Bureau’s iETSolutions Workcenter (iET) to track changes to
the system.

Tests of Operating Effectiveness and Results of Testing

•   Inspected written procedures and determined that ARC had documented procedures for the
    testing, approving, and documenting changes.
•   Inspected the access control lists for the Oracle database and the host server and determined
    that the System Administrator and Database Administrator (DBA) privileges were
    commensurate with job responsibilities.
•   Inspected the access control lists for the PRISM back-end database and the host server and
    determined that the System Administrator and DBA privileges were commensurate with job
    responsibilities.
•   Inspected the webTA system maintenance agreement and determined that the agreement
    contained system maintenance provisions and that it was current.
•   Inspected a selection of webTA upgrades and emergency changes processed in the iET
    system and determined that the documentation of testing and approval was completed.
•   Inspected the GovTrip system maintenance agreement and determined that the agreement
    contained system maintenance provisions and that it was current.
•   For a selection of GovTrip changes, inspected documentation of testing and determined that
    the changes were tested prior to implementation in production.


                                             71        Control Objectives, Related Controls, and
                                                                Tests of Operating Effectiveness
•   Inspected written procedures and determined that the testing of GovTrip changes were in
    accordance with the procedures.
•   Inspected the moveLINQ system maintenance agreement and determined that the agreement
    contained system maintenance provisions and that it was current.
•   For a selection of moveLINQ changes, inspected documentation of testing and determined
    that changes were tested prior to implementation in production.
•   Inspected written procedures for testing moveLINQ changes and determined that change
    procedures were formally documented.
•   Observed iET and noted that the system was designed to retain the necessary change
    management documentation and noted when a change to iET was made.
•   Inspected a selection of changes processed in the iET system and determined that the changes
    were tested and approved prior to implementation to the production environment.
•   Inspected a selection of emergency changes processed in the iET system and determined that
    the emergency change process was followed and properly documented.
•   Inspected the Oracle on Demand maintenance agreement and determined that the agreement
    contained system upgrade and maintenance provisions.
•   For a selection of Oracle on Demand changes via MetaLink,, inspected documentation of
    testing and determined that the changes were tested prior to implementation in production.

No exceptions noted.




                                             72        Control Objectives, Related Controls, and
                                                                Tests of Operating Effectiveness
Control Objective 19 – Non-interruptive System Service

Controls provide reasonable assurance that interruptions due to operational failures are
appropriately limited.

Description of Controls

Prior to the Oracle on Demand migrations, Oracle, PRISM, webTA, and moveLINQ servers
resided in OIT’s data center. The hosting of Oracle and PRISM for two of the three ARC
customer environments were migrated to Oracle on Demand with the cutover dates of April 14,
2009 and May 26, 2009, respectively.

Additional information regarding the Oracle migration is contained in the Information and
Communication section of this report.

BPD has documented policies and procedures for controlling physical access to BPD buildings
and to the data center. These include:
    •   Identification of sensitive/critical areas to which access needs to be restricted.
    •   Physical access controls designed to detect unauthorized access.
    •   Procedures for log reviews and investigation of violations.
The Security Branch issues employee badges, after performing security background checks and
fingerprinting.
Employees are required to have badges available at all times upon request.
Terminated employees are required to surrender identification badges and are removed from the
Physical Access Control System (PACS) system immediately.
Physical access to the OIT Data Center is restricted to authorized users only. An employee
needing access to the data center must have his/her Branch Manager request access. The requests
are made through iET, a workflow system that is used to approve data center access. After the
Branch Manager completes and submits the iET request form, requests are forwarded to OIT's
data center managers for approval in the iET. If OIT approves the request, the BPD Division of
Security and Emergency Preparedness (DSEP) Security Branch grants access via PACS. Only
designated DSEP specialists have access to PACS. Access to all sensitive areas requires use of a
badge. The use of a badge provides an audit trail that is reviewed by OIT management monthly
for potential access violations.     Any unauthorized access attempts are followed-up on by
contacting the individual’s supervisor.

Individuals without badge access to the data center must be escorted to the command center and
are required to sign in/out of a Visitor log to be issued a data center visitor badge. Visitor badges
do not have access to the data center, but rather designate the individual as a visitor. This log is
maintained at the main entrance to the data center.

Vendors that are authorized to have a badge are issued a one-day badge and must leave their
access badge onsite following completion of work in the data center. A log of One-Day badges is
maintained and reviewed daily.

OIT performs a monthly review and reconciliation of individuals with data center access to
individuals authorized to have data center access. Additionally, OIT performs an annual review
and recertification of individuals with access to the data center. If an individual is found to have

                                                73        Control Objectives, Related Controls, and
                                                                   Tests of Operating Effectiveness
unauthorized data center access, OIT will, based on the individual’s need for access, make a
decision whether to request that DSEP remove their data center access or whether to provide
authorization for their access.

The Oracle application is monitored using Quest’s Spotlight and Foglight. Performance
monitoring is provided by Fluke Networks SuperAgent. The networked applications also use
Mercury’s Site Scope to monitor web sites, FTP servers, web servers, and some intrusion
detection every ten minutes. The availability of network infrastructure, such as switches and
firewalls, is monitored using HP Openview. OIT's data center is also physically monitored by
Andover monitoring software. The Andover monitoring software provides continuous checking
and alarming capabilities for temperature changes, water, and humidity threats. Fire detection
and suppression systems are installed in the data center. Redundant battery-powered
uninterruptible power supplies and a backup generator protect the data center from an unplanned
loss of power. Redundant air conditioning systems protect data center computers from
overheating in the event of air conditioning equipment failure. OIT provides operations, support,
capacity planning, performance monitoring, networking, security monitoring, development,
change management, back up, hardware acquisitions and maintenance, and installation support
for ARC.

Oracle
The hosting of Oracle for two of the three customer environments were migrated to Oracle on
Demand. The cutover dates were April 14, 2009 and May 26, 2009, respectively.

After the migration, Oracle on Demand performed the following controls for Oracle:

For C1, Oracle production archive logs are sent to an off-site contingency location every 30
minutes. For C2, Oracle nightly production back-up is used to refresh the off-site contingency
site. The Oracle contingency sites are tested annually as part of the bureau-wide Business
Functionality Test (BFT) exercise.

Oracle on Demand performs daily backups of the database, application code tree, archive logs,
and control files and store on a file server for 5 days. Additionally, semi-weekly backups are
performed of the database, application code tree, archive logs, and control files, and are stored on
tape and retained for five weeks.

System operations manuals are provided to each employee assigned system maintenance
responsibilities. In addition, Oracle support personnel have access to internal application setup
and security documentation, as well as various manuals and documentation produced by the
Oracle Corporation. The Oracle Support Team is available for users to call if they are
experiencing difficulties with the system.

From July 1, 2008 through the cutover dates, OIT performed the following controls for Oracle:

At no less frequently than 15-minute intervals, the Oracle production archive logs were sent to the
off-site Oracle CONTINGENCY server via the Oracle archiver. The Oracle CONTINGENCY
server was tested annually as part of a bureau-wide BFT.

OIT performs complete backups of the AppTier and database nightly. The databases are copied
to the CONTINGENCY server nightly for failover and redundancy. OIT copies the AppTier to
CONTINGENCY on an as needed basis. Additionally, OIT perform differential backups of the
production system nightly and perform a full tape backup weekly. The daily backup tapes are

                                               74       Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
sent to an offsite facility on a weekly basis where they are kept for eight weeks. The monthly
backup tapes are then sent to a long-term offsite facility.

See Control Objective 20 for further discussion of the backup process.

PRISM
The hosting of PRISM for two of the three customer environments have been migrated to Oracle
on Demand; The cutover dates were April 14, 2009 and May 26, 2009, respectively.

After migration, Oracle on Demand performed the following controls for PRISM:

For C1, PRISM production archive logs are sent an off-site contingency location every 30
minutes. For C2, PRISM nightly production back-up is used to refresh the off-site contingency
site. The PRISM contingency sites are tested annually as part of the bureau-wide (BFT) exercise.

Oracle on Demand performs daily backups of the database, application code tree, archive logs,
and control files and store on a file server for 5 days. Additionally, semi-weekly backups are
performed of the database, application code tree, archive logs, and control files, and are stored in
tape and retained for five weeks.

PRISM support personnel have access to internal application setup and security documentation,
as well as various manuals and documentation produced by Compusearch Corporation. The
PRISM Support Team within CSB is available for users to call if they are experiencing
difficulties with the system.

From July 1, 2008 through the cutover dates, OIT performed the following controls for PRISM:

At no less frequently than 15-minute intervals, the PRISM production archive logs were sent to
the off-site PRISM CONTINGENCY server via the Oracle archiver.                   The PRISM
CONTINGENCY server was tested annually as part of a bureau-wide BFT.

OIT performs differential backups of the production system nightly and performs a full tape
backup weekly. The nightly backup tapes are sent to an offsite facility on a weekly basis where
they are kept for eight weeks. The monthly backup tapes are then sent to a long-term offsite
facility.

See Control Objective 20 for further discussion of the backup process.

webTA
webTA support personnel have access to online documentation produced by Kronos. The Human
Resources Support Desk is available for users to call if they are experiencing difficulties with the
system. QCB acts as a liaison between the Human Resources Support Desk and OIT to resolve
system issues.

OIT performs differential backups of the production system nightly and performs a full tape
backup weekly. The nightly backup tapes are sent to an offsite facility on a weekly basis where
they are kept for eight weeks. The monthly backup tapes are then sent to a long-term offsite
facility.

See Control Objective 20 for further discussion of the backup process.


                                               75       Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
GovTrip
ARC TSD staff investigates and attempts to resolve any system issues noticed by the ARC staff
or reported to TSD by GovTrip users. When possible, TSD staff resolves GovTrip issues. If
TSD staff cannot resolve an issue, the issue is escalated to NGMS. TSD notifies system users of
the length of the expected outage or malfunction and notifies them again when the issue is
resolved.

NGMS maintains the data in their Business Data Warehouse for six years and three months.

moveLINQ
ARC purchases new license agreements annually from mLINQS, which include all upgrades and
service packs, monthly per diem rates, Federal travel regulation updates, and unlimited technical
support.

moveLINQ System Administrators investigate any system issues noticed by the OIT Database
Administrators or reported to them by moveLINQ users. When possible, moveLINQ System
Administrators resolve moveLINQ issues. If the administrator cannot resolve an issue, the issue
is escalated to mLINQS, the vendor. The System Administrator notifies the users of the length of
the expected problem and notifies them again when the issue is resolved.

At no less frequently than 15-minute intervals, the moveLINQ database is automatically
replicated to the off-site moveLINQ CONTINGENCY server. The moveLINQ CONTINGENCY
server is tested annually as part of a bureau-wide BFT.

OIT performs differential backups of the production system nightly and performs a full tape
backup weekly. The nightly backup tapes are sent to an offsite facility on a weekly basis where
they are kept for eight weeks. The monthly backup tapes are then sent to a long-term offsite
facility.

See Control Objective 20 for further discussion of the backup process.

RSB maintains the data in the moveLINQ system for six years and three months.

Tests of Operating Effectiveness and Results of Testing
•   Inspected physical access policies and procedures for the data center and determined that they
    were documented and that they included the identification of sensitive/critical areas to which
    access needs to be restricted, physical access controls designed to detect unauthorized access,
    and procedures for log reviews and investigation of violations.
•   Observed physical access controls of BPD buildings and the OIT data center and noted that
    the security guards, video cameras, badge readers, and locked doors were in place and in
    operation to restrict access.
•   Observed persons entering BPD buildings and noted that persons were required to place any
    materials, packages, bundles, etc. onto an x-ray machine, and additionally were required to
    pass through a walkthrough metal detector.
•   Observed persons entering BPD buildings and noted that an activation of the walkthrough
    metal detector resulted in further screening by the security guard, utilizing a handheld metal
    detector to identify the source of activation.


                                               76        Control Objectives, Related Controls, and
                                                                  Tests of Operating Effectiveness
•   Observed an entrant swipe their badge into the access control system and noted that the
    controls system granted access to authorized personnel.
•   Inspected a list of employees with card key access to the data center and tape storage room
    from the card security system and an OIT phone list showing employees requiring access to
    the data center and tape storage room and determined that physical access to the OIT data
    center was restricted to authorized employees only.
•   For a selection of employees and contractors granted access to the data center, inspected the
    iET record for granting access and determined that access was approved by the data center
    manager.
•   For a selection of dates, inspected visitor logs and determined that visitor logs were used.
•   For a selection of dates, inspected the daily shift logs and determined that an inventory of
    vendor badges was performed.
•   Inspected documentation of the monthly review of physical access privileges to the data
    center and determined that access privileges were reviewed.
•   Inspected documentation of the semi-annual review of physical access privileges to the data
    center and determined that access privileges were reviewed.
•   Inspected documentation of the annual recertification of physical access privileges to the
    datacenter and determined that access privileges were recertified.
•   Observed Quest’s Spotlight and Foglight, Fluke Networks SuperAgent, and Mercury’s Site
    Scope, and noted that these applications were installed and in use by OIT staff.
•   Observed variance reports, monitoring logs, and automatically generated alerts from Quest’s
    Spotlight and Foglight and noted that these applications provided monitoring over Oracle and
    that OIT staff reviewed these reports, logs and alerts.
•   Observed variance reports, monitoring logs, and automatically generated alerts from Fluke
    Networks SuperAgent and noted that these applications provided monitoring over the general
    performance of networked applications and that OIT staff reviewed these reports, logs and
    alerts.
•   Observed variance monitoring logs and automatically generated alerts from Mercury’s Site
    Scope and noted that this application provided monitoring over websites, FTP servers, and
    web servers and that OIT staff reviews these logs and alerts.
•   Observed HP Openview and noted that this application was installed and in use by OIT staff
    and provided record of availability of network infrastructure.
•   Observed the Andover monitoring application and noted that the application was installed and
    used to monitor OIT data center environmental conditions.
•   Observed the OIT data center and noted that sprinklers, hand-held fire extinguishers, and
    raised floors were present.
•   Inspected completed maintenance work orders and inspection reports for the uninterruptible
    power supply (UPS), and the emergency power generator and determined that the generator
    and UPS were maintained.
•   Observed deployed environmental controls and noted that environmental controls were
    present.


                                               77        Control Objectives, Related Controls, and
                                                                  Tests of Operating Effectiveness
•   Observed the Oracle system operations manuals and determined that the manuals were
    available to support personnel.
•   Observed internal application setup and security documentation, as well as various manuals
    and documentation produced by Oracle and determined that Oracle support personnel had
    adequate access to materials.
•   Inspected the agreement with the offsite storage vendor and determined that a formal
    agreement was in place for the offsite storage of digital data received on a weekly basis.
•   Inspected the Oracle CONTINGENCY server test documentation records and determined that
    the server was tested as a part of the bureau-wide Business Functionality Test.
•   Inspected a daily selection of AppTier and database backup records and determined that
    AppTier and databases were copied to the CONTINGENCY server nightly for failover and
    redundancy.
•   Inspected a nightly selection of the Oracle production system backups and determined that
    nightly differential and weekly full tape backups had been performed.
•   Observed Oracle picking and packing lists to note that daily backup tapes were sent to an
    offsite facility on a weekly basis for eight weeks and that the monthly backup tapes were then
    sent to a long-term offsite facility.
•   Observed PRISM application setup and security documentation and system manuals and
    noted that documentation was available to support personnel.
•   Inquired of management and was informed that the PRISM Support Team fielded calls for
    incidents related to PRISM.
•   Inspected the PRISM system logs and determined that the logs documented the offsite storage
    of data on a weekly basis.
•   Inspected the PRISM CONTINGENCY server test documentation records and determined the
    server was tested as a part of the bureau-wide Business Functionality Test.
•   Inspected a nightly selection of the PRISM production system backups and determined that
    nightly differential and weekly full tape backups were performed.
•   Observed PRISM picking and packing lists and noted that daily backup tapes were sent to an
    offsite facility on a weekly basis for eight weeks and that the monthly backup tapes were then
    sent to a long-term offsite facility.
•   Inspected ARC’s maintenance agreement for webTA and determined that it was current.
•   Inspected a nightly selection of the webTA production system backups and determined that
    nightly differential and weekly full tape backups were performed.
•   Observed webTA picking and packing lists noted that daily backup tapes were sent to an
    offsite facility on a weekly basis for eight weeks and that the monthly backup tapes were sent
    to a long-term offsite facility.
•   Inspected the GovTrip incident escalation procedures and determined that the incident
    escalation procedures were documented and available to support ARC staff personnel in
    investigating and attempting to resolve any system issues.
•   Inspected the GovTrip incident escalation procedures and determined that if a TSD staff
    could not resolve an issue, the issue was escalated to NGMS.


                                              78        Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
•   Observed GovTrip backup rotation logs and determined that offsite backup tape retention was
    six years and three months.
•   Inspected ARC’s maintenance agreement with mLINQS and determined that the agreement
    required mLINQS to provide software and technical support for moveLINQ.
•   Inspected RSB System Administrators escalation procedures and determined that if an RSB
    Administrator could not resolve an issue, the issue was escalated to mLINQS.
•   Inspected the agreement with the offsite storage vendor and determined that a formal
    agreement was in place for the offsite storage of moveLINQ data on a weekly basis.
•   Inspected a yearly selection of moveLINQ CONTINGENCY server test documentation
    records and determined that the server was tested as a part of the bureau-wide Business
    Functionality Test.
•   Inspected a nightly selection of the moveLINQ production system backups and determined
    that nightly differential and weekly full tape backups were performed.
•   Observed moveLINQ picking and packing lists and noted that daily backup tapes were sent to
    an offsite facility on a weekly basis for eight weeks and that the monthly backup tapes were
    then sent to a RSB long-term offsite facility for six years and three months.


No exceptions noted.




                                             79       Control Objectives, Related Controls, and
                                                               Tests of Operating Effectiveness
Control Objective 20 – Records Maintenance

Controls provide reasonable assurance that source document files are retained and safeguarded in
accordance with ARC and BPD’s Records Management Office policies and procedures.

Description of Controls

The hosting of Oracle and PRISM for two of the three customer environments have been
migrated to Oracle on Demand. The cutover dates were April 14, 2009 and May 26, 2009.
Effective on these dates, data backups of Oracle and PRISM are now performed by Oracle on
Demand. Oracle on Demand performs daily backups of the database, application code tree,
archive logs, and control files and store on a file server for 5 days. Additionally, semi-weekly
backups are performed of the database, application code tree, archive logs, and control files and
are stored on tape and retained for 5 weeks.

Additional information regarding the Oracle migration is contained in the Information and
Communication section of this report.

Both prior to and post Oracle on Demand migrations, OIT/Division of Technology Services
(DTS) performs data backups of the moveLINQ application.

From July 1, 2008 through the cutover dates, OIT performed the following controls:

OIT/DTS performs backups of specified distributed systems and applications as identified by the
data owners. These backups are performed by the guidelines set forth in the Standard Operating
Procedures. Once the backups have been completed, the media can be moved to an alternate
facility as long as the data is encrypted. Once media is identified as needing to be moved off-site,
Enterprise Infrastructure Branch (EIB)/Data Archival and Retrieval Team (DART) is notified
with the specified media ID numbers and the desired retention period. EIB/DART will remove
the specified media from the tape library and send it to CAPS in sealed containers. The location
of media is tracked by the various systems that create the images on the media using data backup
utilities. In addition EIB/DART maintains copies of all contingency site transmittal sheets that
list the media sent in each shipment. Once a week media is picked up and returned by the off-site
storage provider. Long-term offsite storage is provided through a contract. Authority to recall
tapes from off-site is limited to those individuals identified on a list maintained by the off-site
storage provider.

Based on the requirements for the data in the accounting, procurement and relocation systems,
backup tapes are created daily, weekly, and monthly. Daily tapes are retained onsite for four
weeks in the data center tape vault. Weekly and monthly tapes are stored offsite with a tape
storage vendor. Weekly tapes are retained for eight weeks offsite and monthly tapes for two years
to indefinitely depending on the data contained. For the HR time clock system tapes are created
weekly and stored off site for two to eleven years depending on the data.

When tapes are returned from long-term storage, OIT reconciles the shipment that they have
received to their records of the tapes expected to be returned.

On an annual basis, OIT performs a full physical inventory of all backup tapes that are in BPD’s
possession, both at the data center tape library in Parkersburg, West Virginia and at the BPD’s
contingency site.


                                               80        Control Objectives, Related Controls, and
                                                                  Tests of Operating Effectiveness
Network File Servers
Differential tape backups of network servers are created daily. On a weekly basis, OIT completes
a full back up of all ARC shared network files (active and inactive) to a data tape. OIT retains the
backups tapes for five weeks.

Record Storage

Filesurf is a National Archives and Records Administration (NARA) approved records storage
system used by ARC. Hard copy data records are kept in folders and/or binders on-site for one or
two years. When hard copy data records are ready to be transferred off-site, they are either stored
in boxes or they are scanned and stored electronically.

Data records that will be retained in hard copy are packed into boxes and sent to off-site storage.
Prior to sending the boxes off-site, a description of the data being stored in the box, including the
box’s latest document date, and approved retention authority is entered into FileSurf. BPD's
Records Management Office approves the box for storage and produces a label that is placed on
the box. The label includes a unique box number, bar code and box description. The destruction
date is calculated using the approved retention period and the latest document date.

Hard copy data records may also be scanned and saved electronically in FileSurf. PDF data
records are stored in FileSurf folders based on the data's calculated destruction date using the
approved retention period and the latest document date. This method provides for quicker access
to archived data.

For relocation documents, active hard copy records are locked after hours. Inactive and closed
hard copy records are maintained in a locked onsite storage room.

Tests of Operating Effectiveness and Results of Testing

•   Observed the online tape management system and deteremined that data was encrypted prior
    to being written to tape and sent off site.
•   Inspected a list of individuals with authority to recall tapes from offsite storage and their job
    descriptions and determined that authority to recall tapes was commensurate with job
    responsibilities.
•   Observed the online tape management system and contingency site Tape Manifests and noted
    that tapes were kept at three separate locations.
•   Inspected the agreement with the offsite storage vendor and determined that a formal
    agreement was in place for the offsite storage of media.
•   Observed Operations Personnel step through the process of opening received packages of
    tapes from contingency site and noted that they compared the contents of the package to the
    tape management records.
•   Inspected full physical inventory documents of all backup tapes that were in BPD’s
    possession and determined that the annual tape inventory was performed.
•   For a selected network file server used by ARC, inspected system-generated backup
    schedules and backup logs and determined that daily differential backups and weekly full
    backups of the file server were scheduled and successfully completed.


                                                81        Control Objectives, Related Controls, and
                                                                   Tests of Operating Effectiveness
•   Observed the location of the on-site hard copy records and noted that the hard copy records
    were stored on-site in folders for specified time period.
•   Inspected an example of hard copy records offsite shipment box and determined that
    appropriate descriptions were documented.
•   Inspected an example of hard copy records offsite shipment logs and determined that the hard
    copy records were labeled and stored.
•   Inspected hard copy records destruction logs and determined that the hard copy records were
    labeled and stored.
•   Observed the FileSurf system and noted that the records could be created, requested, and
    saved electronically using FileSurf, which was maintained by IMB.
•   Observed the location of the active hard copy data records and noted that the hard copy
    records were locked after hours.
•   Observed the location of the inactive hard copy data records and noted that the hard copy
    records were stored in a locked onsite storage room.
•   Inspected the list of authorized individuals that had access to the onsite storage room and
    determined that only authorized individuals have access.


No exceptions noted.




                                               82        Control Objectives, Related Controls, and
                                                                  Tests of Operating Effectiveness
IV. OTHER INFORMATION PROVIDED BY THE
       BUREAU OF THE PUBLIC DEBT




                83
CONTINGENCY PLANNING

System Back Up
The Oracle Federal Financials (Oracle) accounting system has a contingency plan managed by
the Administrative Resource Center (ARC). There is a formal ARC Business Continuity Plan
(BCP), last updated January 2008. All essential Oracle functions will be performed at the
contingency site with the support of ARC employees. Monthly testing is conducted that focuses
on the restoration of systems, as well as critical data sets. Full disaster recovery testing is
performed on an annual basis in conjunction with the Bureau of the Public Debt’s (BPD) Office
of Information Technology (OIT) Data Center’s Disaster Recovery Plan (DRP).

OIT uses the NetBackup from Veritas to backup networked systems. Short-term storage of
Oracle tapes are maintained at a Contingency Alternate Processing Site (CAPS) facility. Long-
term tape storage is maintained at an offsite location.

OIT performs changed data backups of the Oracle and PRISM systems daily and performs full
data backups weekly. Daily differential backup tapes are retained by OIT and stored in the Data
Center where they are recycled after four weeks. On a weekly basis, the full tape backups are
placed in turtle cases and sent to the Tape Vault at the CAPS facility. The tape backups are
retained for approximately eight weeks and then shipped to the long-term storage facility where
they are retained for seven years.

OIT performs complete backups of the production database and AppTier nightly. OIT copies
the AppTier to CONTINGENCY on an as needed basis. All critical datasets are retained for at
least three years at a long-term offsite facility.

At 15-minute intervals, the Oracle production system archive logs are copied to the off-site
Oracle CONTINGENCY server via the Oracle archiver. The Oracle CONTINGENCY server is
tested annually as part of a bureau-wide BFT exercise.

OIT performs differential backups of the webTA production system nightly and performs a full
tape backup weekly. The nightly backup tapes are sent to an offsite facility on a weekly basis
where they are kept for eight weeks. The monthly backup tapes are then sent to a long-term
offsite facility.

OIT performs differential backups of the moveLINQ production database nightly and performs a
full tape backup weekly. The nightly backups are sent to an offsite facility on a weekly basis
where they are kept for eight weeks. The monthly backup tapes are sent to a long-term offsite
facility. At 15-minute intervals, the moveLINQ database is automatically replicated to the off-
site moveLINQ contingency server. The moveLINQ application is tested annually as part of a
bureau-wide BFT exercise.

NGMS is responsible for system backup of GovTrip and maintains data in their Business Data
Warehouse for six years and three months.

Continuity of Operations
A fire alarm and sprinkler system that is managed, maintained, and tested by the building
management protects ARC and OIT facilities. Alarms are active 24 hours a day, 7 days a week,
and are tied-to a local alarm services company for spontaneous notification. Sprinkler heads are
located in the ceiling of each room of the buildings. This is a “wet pipe” (always charged with
water) system with individual heads that discharge water.

                                             84              Other Information Provided by the
                                                                     Bureau of the Public Debt
In the event the main building, where the Oracle system is maintained, becomes inoperable,
network operations would be relocated to the CAPS facility in accordance with the OIT data
center’s DRP. This facility employs a “warm site” strategy for recovery of network operations.
Oracle has been classified as a critical application.

As part of the ARC BCP, should ARC facilities become unavailable, essential ARC personnel
will relocate to the CAPS facility to reestablish their essential functions. ARC will revert to
manual procedures until the networked accounting system is fully recovered at the CAPS facility.




                                             85               Other Information Provided by the
                                                                      Bureau of the Public Debt
  V. INDEPENDENT AUDITORS’ REPORT ON
COMPLIANCE WITH LAWS AND REGULATIONS




                 86
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036


                                   Independent Auditors’ Report

Inspector General, U.S. Department of the Treasury
Deputy Executive Director, Administrative Resource Center:


We have examined the accompanying description of the accounting processing and general
computer controls related to the financial management services provided by the Administrative
Resource Center (ARC) of the Bureau of the Public Debt (BPD) as of June 30, 2009, and have
issued our report thereon dated August 27, 2009. Our examination was performed in accordance
with standards established by the American Institute of Certified Public Accountants, and
applicable Government Auditing Standards, issued by the Comptroller General of the United
States.

Our examination included procedures to obtain reasonable assurance about whether (1) the
accompanying description presents fairly, in all material respects, the aspects of BPD’s controls
that may be relevant to a customer agencies’ internal control as it relates to an audit of financial
statements; (2) the controls included in the description were suitably designed to achieve the
control objectives specified in the description, if those controls were complied with satisfactorily,
and customer agencies and sub-service organizations applied the controls contemplated in the
design of BPD’s controls; and (3) such controls had been placed in operation as of June 30, 2009.
The control objectives were specified by the management of BPD. Our examination included
those procedures we considered necessary in the circumstances to obtain a reasonable basis for
rendering our opinion.

Compliance with laws and regulations applicable to ARC of BPD is the responsibility of BPD
management. As part of obtaining reasonable assurance about whether control structure policies
and procedures tested were operating with sufficient effectiveness to achieve the related control
objectives during the period from July 1, 2008 to June 30, 2009, we performed tests of BPD’s
compliance with certain provisions of applicable laws and regulations directly and materially
affecting the accounting and general computer controls. We limited our tests of compliance to
these provisions and we did not test compliance with all applicable laws and regulations. The
objective of our examination was not, however, to provide an opinion on overall compliance with
such provisions. Accordingly, we do not express such an opinion.

The results of our tests disclosed no instances of noncompliance that are required to be reported
herein under Government Auditing Standards.

This report is intended solely for the information and use of the management of BPD, its
customer agencies, the independent auditors of its customer agencies, the U.S. Department of the
Treasury Office of Inspector General, the Office of Management and Budget, the Government
Accountability Office, and the U.S. Congress, and is not intended to be, and should not be, used
by anyone other than these specified parties.




August 27, 2009


                                                             87
                                KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                member firm of KPMG International, a Swiss cooperative.
